APP NO. _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

THOMAS MORE LAW CENTER,

Petitioner,
V.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,

Respondent.

On Application for an Extension of Time
to File Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITIONER'S APPLICATION TO EXTEND TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
Lours H. CASTORIA
KAUFMAN DOLOWICH & VOLUCK, LLP

425 California Street, Suite 2100
San Francisco, CA 94104
(415) 926-7600

JOHN J. BURSCH

Counsel of Record

ALLIANCE DEFENDING FREEDOM

440 First Street, N.W., Suite 600
Washington, D.C . 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

Corporate Disclosure Statement
Pursuant to Supreme Court Rule 29.6, Petitioner Thomas More Law Center
states that it is a Michigan nonprofit corporation with no parent corporation and no
publicly held company owns 10% or more of its stock.

1

To the Honorable Elena Kagan, as Circuit Justice for the United States Court of
Appeals for the Ninth Circuit:
Pursuant to this Court's Rules 13.5, 22, 30.2, and 30.3, Petitioner Thomas More
Law Center (the "Law Center") respectfully requests that the time to file its Petition
for Writ of Certiorari in this matter be extended for 60 days up to and including
August 26, 2019 . The Court of Appeals issued its opinion on September 11, 2018.
(Appendix ("App.") A) and denied rehearing en bane on March 29, 2019 over the
dissent of five judges (App. B). Absent an extension of time, the Petition for Writ of
Certiorari would be due on June 27, 2019. Petit ioners are filing this Application more
than ten days before that date. See S. Ct. R. 13.5. This Court would have jurisdiction
over the judgment under 28 U.S.C. 1254(1). Respondent takes no position on the Law
Center's request.

Background
California requires all charities that fundraise in the State to register with the
California Attorney General and make annual filings to the Attorney General's
Register of Charitable Trusts. Thomas More Law Center is a 501(c)(3) organization
based in Michigan that defends and promotes America's Judeo-Christian heritage,
religious freedom, moral and family values, the sanctity of human life, and a strong
national defense. It fundraises in California and has operated as a charity in good
standing with the Attorney General from 2001 until 2012.

2

After the Law Center fundraised in California for more than a decade with no
complaints filed, the Attorney General deemed the Law Center's 2010 registration
filing insufficient because, even though it included the Law Center's IRS Form 990,
the Law Center omitted the form's Schedule B, which lists the names and addresses
of the Law Center's major donors.
The Law Center hired a Michigan law firm to explain to the Attorney General's
Office why it had never turned over its Schedule B and should not be required to
disclose its major donors' confidential information now. But the Attorney General's
Office refused to communicate with the Law Center's counsel and threatened to
suspend the Law Center's nonprofit registrat ion and impose personal fines on its
directors, officers, and return preparers unless the Law Center handed over its
Schedule B. Without conciliatory options, the Law Center retained California counsel
and filed suit to protect its right to associate with California residents without
sacrificing its major donors' anonymity.
Because people associated with the Law Center have experienced threats,
harassment, and other chilling conduct in the past, the district court issued a
temporary protective order and then a preliminary injunction enjoining the Attorney
General from demanding that the Law Center disclose its Schedule B or punishing
the Law Center for refusing to disclose its major donors. Thomas More Law Ctr. v.

Harris, No. 2:15-cv-3048-R (C.D. Cal. Apr. 29, 2015); Thomas More Law Ctr. v.
Harris, No. 2:15-cv-3048-R (C.D. Cal. May 19, 2015). The Attorney General appealed,
and the Ninth Circuit rewrote the district court's preliminary injunction, allowing the

3

Attorney General to demand the Law Center's Schedule B but forbidding the
Attorney General from publicly disclosing its contents under state sunshine laws or
otherwise. Ams. for Prosperity Found. v. Harris, 809 F .3d 536, 538 (9th Cir. 2015)
(per curiam).
On remand, the district court denied the parties' competing motions for
summary judgment and held a bench trial. Thomas More Law Ctr. v. Harris, No. 153048-R (C.D. Cal. July 18, 2016). The district court found that the Attorney General's
Office hardly ever used charity's Schedule B information in auditing or investigating
charities. Thomas More Law Ctr. v. Harris, No. 15-3048-R, 2016 WL 6781090, at *2
(C.D. Cal. Nov. 16, 2016). Even when it did, the district court found that the Attorney
General's Office could obtain the relevant information from other sources, and that
requiring the Law Center to disclose its major donors' identifying information
annually was more burdensome than necessary to serve the State's interest in
preventing fraud . Ibid.
The district court also found that the Attorney General's Office had a long
history of inadvertently making Schedule B information available online. Id. at *5.
Not only had the Attorney General's Office misclassified around 1,800 Schedule B
forms as public over several years, but it made 350,000 confidential documents easily
accessible online just by altering a single digit at the end of the URL. Ibid .
(referencing Ams. for Prosperity Found. v. Harris, 182 F. Supp. 3d 1049, 1057 (2016));
App. A. 36-37. The district court found this history of public disclosure would put
existing and prospective donors in reasonable fear of losing anonymity even though

4

the Attorney General claimed this time donors' information would be secure. Thomas

More Law Ctr., 2016 WL 6781090, at *5.
The district court concluded that it was bound by Ninth Circuit precedent to
reject the Law Center's facial challenge to the Attorney General's donor-disclosure
rule. Id. at *l. But it carefully analyzed the Law Center's as-applied claim. Ibid.
Given the Law Center's speech on highly controversial issues and the death threats,
harassing calls, obscene emails, pornographic letters, and boycotts that those
associated with the Law Center had experienced in the past, the district court found
that publicly-exposed donors would likely face the same treatment. Id. at *4.
Accordingly, the district court permanently enjoined the Attorney General from
demanding that the Law Center disclose its major donors' names and addresses. Id.
at *7.
The Attorney General appealed. A panel of the Ninth Circuit reiterated that
circuit precedent precluded the Law Center's facial challenge and reversed the
district court's as-applied ruling in the Law Center's favor. App. A. 40-41. The panel
applied the exacting scrutiny test this Court articulated in Buckley u. Valeo , 424 U.S.
1 (1976), for disclosure requirements in the electoral context, which requires only a
substantial relation between the compelled disclosure and a sufficiently important
government interest. Id. at 15. In so doing, the panel explicitly declined to apply strict
scrutiny. Id. at 16. Consequently, the panel concluded that the Attorney General's
blanket-disclosure rule bore a substantial relation to the State's important interest
in preventing charitable fraud. Id. at 17-22. And the panel held that the district court

5

erred by imposing a narrow tailoring or least-restrictive-means test that does not
apply under exacting scrutiny. Id. at 23-24.
Even though the panel recognized the Attorney General's disclosure
requirement may cause some donors to withhold their support, it found no
substantial burden on the Law Center's or its donors' freedom of expressive
association. Id. at 28-29. The panel criticized the Law Center for failing to prove that
its donors would face harassment only because they provided the Law Center with
money and not based on other controversial activities. Id. at 32 n.6, 33-34. Likewise,
it demanded the Law Center provide "more detailed evidence" proving a reasonable
probability of harassment based on a connection to it "in particular" and suggested
that harassment as a result of donor disclosure must essentially be "a foregone
conclusion" for an as-applied challenge to succeed. Id. at 32 n.6 , 33 n.7 , 34.
The panel held that no showing of a reasonable probability of harassment was
possible because the Attorney General's Office had implemented protective measures
to prevent unintended public disclosure of donor information. Id. at 34-35. It ruled
that the district court clearly erred in finding a reasonable probability that the Law
Center's major donors' information would be made public under this new regime
despite the Attorney General's Office systematic incompetence in the past and the
continuing absence of any safeguards preventing employees from emailing or printing
Schedule Bs and then making them public. Id. at 35-40.
The Law Center filed a timely petition for en bane review. The Ninth Circuit
denied the petition over the dissent of five judges. App.Bat 4. Judge Ikuta, joined by

6

Judges Callahan, Bea, Bennett, and R. Nelson, would have granted the petition
because the panel engaged in "appellate factfinding and crucial legal errors." Id. at 6.
The en bane dissent would have applied strict scrutiny as laid down in this Court's

NAACP v. Alabama, 357 U.S. 449 (1958) line of cases, not exacting scrutiny, which
only applies to disclosure requirements in the electoral context. App.Bat 5-7, 18, 2123. And it would not have overturned the district court's factual findings that it was
reasonably likely donors' names would be publicly disclosed and they would face
harassment as a result. Id. at 18-21. Because the panel opinion gave donors to
controversial organizations no meaningful First Amendment protection, the en bane
dissent would have granted the petition to bring Ninth Circuit precedent "in line with
Supreme Court jurisprudence" and a majority of other circuits. Id. at 6-7, 10-13, 24.
The panel's ruling, said the dissenters, "eviscerates the First Amendment protections
long-established by the Supreme Court." Id. at 23.

Reasons For Granting An Extension Of Time
The time to file a Petition for a Writ of Certiorari should be extended for 60
days for the following reasons:
1. Petitioners' Counsel of Record, John J. Bursch, was not involved in the

litigation below and has only recently been retained to prepare a petition for
certiorari. It will take considerable time for Mr. Bursch to familiarize himself with
the substantial record and prepare a concise petition of maximum helpfulness to the
Court. In addition, Mr. Bursch has numerous litigation deadlines in the weeks
leading up to and immediately following the current deadline:

7

•

An Application for Leave to Appeal to the Michigan Court of Appeals on
May 29, 2019. People of the State of Michigan v. Nicolas Leonard Lyon,
Genesee County Circuit Court No. 18-043836-FH.

•

A Writ Application to the Louisiana Supreme Court on June 19, 2019.
John Doe v. The Roman Catholic Church of the Archdiocese of New
Orleans et al. , Louisiana Court of Appeals No. 2019-C-289.

•

An Application for Leave to Appeal to the Michigan Supreme Court on
July 2, 2019. Ostendorfv. United Educators, Michigan Court of Appeals
Nos.332442,338363 .

•

An amicus brief supporting the petition in this Court on July 5, 2019.
Price v. City of Chicago, No. 18A1114.

•

A merits brief in this Court on August 16, 2019. R.G. & G.R. Harris
Funeral Homes, Inc. v. Equal Employment Opportunity Commission, No.
18-107.

•

Counsel of Record further assists in overseeing briefing by approximately
60 employees in dozens of additional litigation matters pending in federal
and state courts across the country.

2. This case presents issues of importance to charities nationwide who face a
potential fundraising crisis if the California Attorney General's blanket major-donor
disclosure rule goes into effect. Nonprofits across the political spectrum-including
the Proposition 8 Legal Defense Fund, The Philanthropy Roundtable, the NAACP
Legal Defense Fund, and multiple States- testified to this fact by filing amicus briefs
in the combined Ninth Circuit litigation. As the en bane dissent explained, "[t]he First
Amendment freedom to associate is vital to a functioning civil society" and "[f1or
groups with 'dissident beliefs,' it is fragile. " App. B at 24.
The panel opinion allows "a state's self-serving assertions about efficient law
enforcement" to justify the forced "disclosure of sensitive associational ties" and it did
so "notwithstanding the threats, hostility, and economic reprisal against socially

8

disfavored groups that may ensue." Id. at 23. In short, the Ninth Circuit's ruling "puts
anyone with controversial views at risk." Id. at 24. Given this case's importance to
charities across the nation, Petitioner's counsel requires additional time to ensure
that the relevant issues are fully and adequately presented to this Court.
3. A significant prospect exists that this Court will grant certiorari and reverse
the Ninth Circuit. The panel's ruling directly conflicts with decisions by six Courts of
Appeals that apply strict scrutiny under NAACP v. Alabama to disclosure rules that
severely burden freedom of association outside of the electoral context. App. B at 12
& n.1; see also United States v. Comley, 890 F.2d 539, 544 (1st Cir. 1989) (the

government must "show both a compelling need for the material sought and that
there is no significantly less restrictive alternative for obtaining the information");

Master Printers of Am. v. Donovan, 751 F.2d 700, 705 (4th Cir. 1984) ("[T]he
government must show that the disclosure and reporting requirements are justified
by a compelling government interest, and that the legislation is narrowly tailored to
serve that interest."); Familias Unidas v. Briscoe, 619 F .2d 391, 399-400 (5th Cir.
1980) (disclosure requirements must be "substantially related to a legitimate and
compelling underlying state interest" and must be "drawn with sufficiently narrow
specificity to avoid impinging more broadly upon First Amendment liberties than is
absolutely necessary"); Humphreys, Hutcheson & Moseley v. Donovan, 755 F.2d 1211,
1221 (6th Cir. 1985) ("[W] e must look further to determine whether this disclosure
legislation is narrowly tailored to serve a compelling governmental interest.");

Pleasant v. Lovell, 876 F .2d 787,804 (10th Cir. 1989) (some interference with freedom

9

of association "may be permissible when the government can demonstrate a
compelling interest ... that is narrowly tailored"); Clark v. Library of Congress, 750
F.2d 89, 94 (D.C. Cir. 1984) ("[T]he government must demonstrate that the means
chosen to further its compelling interest are those least restrictive of freedom of belief
and association.").
Moreover, Justices of this Court have already expressed concerns that lower
courts are not adequately scrutinizing the harm disclosure rules pose to freedom of
association. The Ninth Circuit's ruling bears them out. For example, Justice Thomas
has noted that too often '"exacting scrutiny' means no scrutiny at all" and has
suggested that "a State's purported interest in disclosure cannot justify revealing the
identities of an organization's otherwise anonymous donors" even in the electoral
context. Del. Strong Families v. Denn, 136 S. Ct. 2376, 2378 (2016) (Thomas, J.,
dissenting from the denial of certiorari). As the en bane dissent recognized, the Ninth
Circuit "demanded no explanation from California for why such a sweeping disclosure
requirement-imposed before the state has any reason to investigate a charity-is
justified given equally effective, less restrictive means exist." App. B at 23.
Justice Alita has similarly explained that as-applied challenges to disclosure
rules "provides adequate protection for First Amendment rights only if (1) speakers
can obtain the exemption sufficiently far in advance to avoid chilling protected speech
and (2) the showing necessary to obtain the exemption is not overly burdensome."

John Doe No. 1 v. Reed, 561 U.S. 186, 203 (2010) (Alita, J., concurring). But, as the
en bane dissent described, the Ninth Circuit's ruling "imposes a next-to-impossible

10

evidentiary burden on plaintiffs seeking protection of their associational rights," App.
Bat 23, and this litigation has already dragged on for over four years.
4. An extension will not cause prejudice to Respondents, as this Court would
likely hear oral argument and issue its opinion in the October 2019 Term regardless
of whether an extension is granted. An extension will further ensure that
Respondents need not prepare a brief in opposition during the summer holidays.
Finally, this Court has already granted the same extension request in this case's
companion case, Americans for Prosperity Foundation v. Becerra, No. 18A1224.

Conclusion
For the foregoing reasons, Petitioners respectfully request that the time to file
the Petition for a Writ of Certiorari in this matter be extended 60 days, up to and
including August 26, 2019.

Respectfully submitted.

Lours H. CASTORIA

KAUFMAN DOLOWICH

/ )~

~

& VOLUCK, LLP

425 California Street, Suite 2100
San Francisco, CA 94104
(415) 926-7600

~

NiuRscH

Counsel of Record
ALLIANCE DEFENDING FREEDOM

440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

11

APPENDIX A

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff-Appellee,
v.

No. 16-55727
D.C. No.
2:14-cv-09448R-FFM

XAVIER BECERRA, in his Official
Capacity as Attorney General of
California,
Defendant-Appellant.

AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official
Capacity as Attorney General of
California,
Defendant-Appellee.

No. 16-55786
D.C. No.
2:14-cv-09448R-FFM

2

AMERICANS FOR PROSPERITY V. BECERRA
THOMAS MORE LAW CENTER,
Plaintiff-Appellee,
v.
XAVIER BECERRA, in his Official
Capacity as Attorney General of the
State of California,
Defendant-Appellant.
THOMAS MORE LAW CENTER,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official
Capacity as Attorney General of the
State of California,
Defendant-Appellee.

No. 16-56855
D.C. No.
2:15-cv-03048R-FFM

No. 16-56902
D.C. No.
2:15-cv-03048R-FFM
OPINION

Appeal from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted June 25, 2018
Pasadena, California
Filed September 11, 2018
Before: Raymond C. Fisher, Richard A. Paez
and Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Fisher

AMERICANS FOR PROSPERITY V. BECERRA

3

SUMMARY *
Civil Rights
The panel vacated the district court’s permanent
injunctions, reversed the bench trial judgments, and
remanded for entry of judgment in favor of the California
Attorney General in two cases challenging California’s
charitable registration requirement as applied to two nonprofit organizations that solicit tax-deductible contributions
in the state.
Plaintiffs qualify as tax-exempt charitable organizations
under § 501(c)(3) of the Internal Revenue Code, 26 U.S.C.
§ 501(c)(3). They challenge the Attorney General of
California’s collection of Internal Revenue Service Form
990 Schedule B, which contains the names and addresses of
their relatively few largest contributors. Plaintiffs argue the
state’s disclosure requirement impermissibly burdens their
First Amendment right to free association.
The panel held that the California Attorney General’s
Schedule B requirement, which obligates charities to submit
the very information they already file each year with the IRS,
survived exacting scrutiny as applied to the plaintiffs
because it was substantially related to an important state
interest in policing charitable fraud. The panel held that
plaintiffs had not shown a significant First Amendment
burden on the theory that complying with the Attorney
General’s Schedule B nonpublic disclosure requirement
would chill contributions. The panel further concluded that
*
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

4

AMERICANS FOR PROSPERITY V. BECERRA

even assuming arguendo that the plaintiffs’ contributors
would face substantial harassment if Schedule B information
became public, the strength of the state’s interest in
collecting Schedule B information reflected the actual
burden on First Amendment rights because the information
was collected solely for nonpublic use, and the risk of
inadvertent public disclosure was slight.
COUNSEL
Alexandra Robert Gordon (argued), Jose A. ZelidonZepeda, Kevin A. Calia, and Emmanuelle S. Soichet, Deputy
Attorneys General; Tamar Pachter, Supervising Deputy
Attorney General; Douglas J. Woods, Senior Assistant
Attorney General; Xavier Becerra, Attorney General; Office
of the Attorney General, San Francisco, California; for
Defendant-Appellant/Cross-Appellee.
Derek Shaffer (argued), William A. Burck, Eric C. Lyttle,
Keith H. Forst, and Jonathan G. Cooper, Quinn Emanuel
Urquhart & Sullivan LLP, Washington, D.C.; Harold Barza,
Quinn Emanuel Urquhart & Sullivan, LLP, Los Angeles,
California; for Plaintiff-Appellee/Cross-Appellant.
Tara Malloy, J. Gerald Hebert, and Megan P. McAllen,
Campaign Legal Center, Washington, D.C., for Amicus
Curiae Campaign Legal Center.
Jeremy Talcott and Joshua P. Thompson, Pacific Legal
Foundation, Sacramento, California, for Amicus Curiae
Pacific Legal Foundation.
Marc Rotenberg, Alan Butler, James T. Graves, and John
Davisson, Electronic Privacy Information Center,

AMERICANS FOR PROSPERITY V. BECERRA

5

Washington, D.C., for Amicus Curiae Electronic Privacy
Information Center.
David Weiner and Robert Leider, Arnold & Porter Kaye
Scholer LLP, Washington, D.C., for Amicus Curiae The
Philanthropy Roundtable.
Keith Joseph Miller, Assistant Attorney General; Dominic
E. Draye, Solicitor General; Mark Brnovich, Attorney
General; Office of the Attorney General, Phoenix, Arizona,
for Amici Curiae States of Arizona, Alabama, Louisiana,
Michigan, Nevada, Texas, and Wisconsin.
Mark Joseph Fitzgibbons, American Target Advertising,
Manassas, Virginia, for Amicus Curiae American Target
Advertising, Inc.
Allyson Newton Ho and John C. Sullivan, Gibson Dunn &
Crutcher LLP, Dallas, Texas; C. Dean McGrath Jr., McGrath
& Associates, Washington, D.C.; for Amici Curiae Pacific
Research Institute, Cato Institute, and Competitive
Enterprise Institute.
Christopher H. McGrath and Samuel S. Sadeghi Paul
Hastings LLP, Costa Mesa, California; George W. Abele,
Paul Hastings LLP, Los Angeles, California; Brett Harvey,
Alliance Defending Freedom, Scottsdale, Arizona;
Nathaniel Bruno, Alliance Defending Freedom,
Washington, D.C.; for Amicus Curiae Alliance Defending
Freedom.
Brian Timothy Burgess, Goodwin Procter LLP, Washington,
D.C.; David J. Zimmer, Goodwin Procter LLP, Boston,
Massachusetts; for Amici Curiae NAACP Legal Defense
and Educational Fund, Inc.

6

AMERICANS FOR PROSPERITY V. BECERRA

Andrew P. Pugno, Law Offices of Andrew P. Pugno, Fair
Oaks, California, for Amicus Curiae Proposition 8 Legal
Defense Fund.
Herbert W. Titus, Jeremiah L. Morgan, William J. Olson,
and Robert J. Olson, William J. Olson P.C., Vienna,
Virginia; Joseph W. Miller, Ramona, California; Michael
Boos, Washington, D.C.; for Amici Curiae Free Speech
Defense and Education Fund, Free Speech Coalition,
Citizens United, Citizens United Foundation, National Right
to Work Committee, U.S. Constitutional Rights Legal
Defense Fund, U.S. Justice Foundation, Family Research
Council, Western Center for Journalism, Conservative Legal
Defense and Education Fund, The Leadership Institute,
Public Advocate of the United States, Downsize DC
Foundation, Downsize. Org, Gun Owners Foundation, Gun
Owners of America, 60 Plus, 60 Plus Association, America’s
Foundation for Law and Liberty, America’s Liberty
Committee, Citizen Outreach Foundation, Citizen Outreach,
LLC, Law Enforcement Alliance of America, Liberty Guard,
Coalition for a Strong America, The Jesse Helms Center,
Americans for Constitutional Liberty, Catholicvote.org,
Eberle Communications Group, Inc., Clearword
Communications Group, Davidson & Co., and JFT
Consulting.

AMERICANS FOR PROSPERITY V. BECERRA

7

OPINION
FISHER, Circuit Judge:
We address the constitutionality of a California
charitable registration requirement as applied to two nonprofit organizations that solicit tax-deductible contributions
in the state. Americans for Prosperity Foundation (the
Foundation) and Thomas More Law Center (the Law Center)
qualify as tax-exempt charitable organizations under
§ 501(c)(3) of the Internal Revenue Code, 26 U.S.C.
§ 501(c)(3). They challenge the Attorney General of
California’s collection of Internal Revenue Service (IRS)
Form 990 Schedule B, which contains the names and
addresses of their relatively few largest contributors. The
Attorney General uses the information solely to prevent
charitable fraud, and the information is not to be made public
except in very limited circumstances. The plaintiffs argue
the state’s disclosure requirement impermissibly burdens
their First Amendment right to free association by deterring
individuals from making contributions.
The district court held that the Schedule B requirement
violates the First Amendment as applied to the Foundation
and Law Center and permanently enjoined the Attorney
General from demanding the plaintiffs’ Schedule B forms.
We have jurisdiction under 28 U.S.C. § 1291, and we vacate
the injunctions, reverse the judgments and remand for entry
of judgment in the Attorney General’s favor.
We hold that the California Attorney General’s Schedule
B requirement, which obligates charities to submit the very
information they already file each year with the IRS,
survives exacting scrutiny as applied to the plaintiffs because
it is substantially related to an important state interest in
policing charitable fraud. Even assuming arguendo that the

8

AMERICANS FOR PROSPERITY V. BECERRA

plaintiffs’ contributors would face substantial harassment if
Schedule B information became public, the strength of the
state’s interest in collecting Schedule B information reflects
the actual burden on First Amendment rights because the
information is collected solely for nonpublic use, and the risk
of inadvertent public disclosure is slight.
I.
A.
California’s Supervision of Trustees and Charitable
Trusts Act requires the Attorney General to maintain a
registry of charitable corporations (the Registry) and
authorizes him to obtain “whatever information, copies of
instruments, reports, and records are needed for the
establishment and maintenance of the [Registry].” Cal.
Gov’t Code § 12584. To solicit tax-deductible contributions
from California residents, an organization must maintain
membership in the Registry. See id. § 12585. Registry
information is open to public inspection, subject to
reasonable rules and regulations adopted by the Attorney
General. See id. § 12590.
As one condition of Registry membership, the Attorney
General requires charities to submit a complete copy of the
IRS Form 990 they file with the IRS, including attached
schedules. See Cal. Code Regs. tit. 11, § 301. 1 One of these
In July 2018, the IRS announced it would no longer require certain
tax-exempt organizations, other than 501(c)(3) organizations, to report
the names and addresses of their contributors on Schedule B. See Press
Release, U.S. Dep’t of the Treasury, Treasury Department and IRS
Announce Significant Reform to Protect Personal Donor Information to
Certain
Tax-Exempt
Organizations
(July
16,
2018),
https://home.treasury.gov/news/press-releases/sm426.
Federal law,
1

AMERICANS FOR PROSPERITY V. BECERRA

9

attachments, Schedule B, requires 501(c)(3) organizations to
report the names and addresses of their largest contributors.
Generally, they must report “the names and addresses of all
persons who contributed . . . $5,000 or more (in money or
other property) during the taxable year.” 26 C.F.R.
§ 1.6033-2(a)(2)(ii)(f). Special rules, however, apply to
organizations, such as the Foundation and Law Center,
meeting certain support requirements. These organizations
need only “provide the name and address of a person who
contributed . . . in excess of 2 percent of the total
contributions . . . received by the organization during the
year.” Id. § 1.6033-2(a)(2)(iii)(a). An organization with
$10 million in receipts, for example, is required to disclose
only contributors providing at least $200,000 in financial
support. Here, for any year between 2010 and 2015, the Law
Center was obligated to report no more than seven
contributors on its Schedule B, and the Foundation was
required to report no more than 10 contributors – those
contributing over $250,000 to the Foundation.
The IRS and the California Attorney General both make
certain filings of tax-exempt organizations publicly
available but exclude Schedule B information from public
inspection. See 26 U.S.C. § 6104; Cal Gov’t Code § 12590;
Cal. Code Regs. tit. 11, § 310. At the outset of this litigation,
the Attorney General maintained an informal policy treating
Schedule B as a confidential document not available for
public inspection on the Registry. See Americans for
Prosperity Found. v. Harris, 809 F.3d 536, 542 (9th Cir.
2015) (AFPF I). In 2016, the Attorney General codified that
policy, adopting a regulation that makes Schedule B
information confidential and exempts it from public
however, continues to require 501(c)(3) organizations, such as the
plaintiffs, to file Schedule B information with the IRS.

10

AMERICANS FOR PROSPERITY V. BECERRA

inspection except in a judicial or administrative proceeding
or in response to a search warrant. See Cal. Code Regs. tit.
11, § 310 (July 8, 2016). Under the new regulation:
Donor information exempt from public
inspection pursuant to Internal Revenue Code
section 6104(d)(3)(A) shall be maintained as
confidential by the Attorney General and
shall not be disclosed except as follows:
(1) In a court or administrative proceeding
brought pursuant to the Attorney General’s
charitable trust enforcement responsibilities;
or
(2) In response to a search warrant.
Id. § 310(b). In accordance with this regulation, the
Attorney General keeps Schedule Bs in a separate file from
other submissions to the Registry and excludes them from
public inspection on the Registry website.
B.
Thomas More Law Center is a legal organization
founded to “restore and defend America’s Judeo-Christian
heritage” by “represent[ing] people who promote Roman
Catholic values,” “marriage and family matters, freedom
from government interference in [religion]” and “opposition
to the imposition of Sharia law within the United States.”
Americans for Prosperity Foundation was founded in 1987
as “Citizens for a Sound Economy Educational Foundation,”
with the mission of “further[ing] free enterprise, free
society-type issues.” The Foundation hosts conferences,
issues policy papers and develops educational programs
worldwide to promote the benefits of a free market. It

AMERICANS FOR PROSPERITY V. BECERRA

11

operates alongside Americans for Prosperity, a 501(c)(4)
organization focused on direct issue advocacy.
Charities like the Foundation and the Law Center are
overseen by the Charitable Trusts Section of the California
Department of Justice, which houses the Registry and a
separate investigative and legal enforcement unit (the
Investigative Unit). The Registry Unit processes annual
registration renewals and maintains both the public-facing
website of registered charities and the confidential database
used for enforcement. The Investigative Unit analyzes
complaints of unlawful charity activity and conducts audits
and investigations based on those complaints.
Beginning in 2010, the Registry Unit ramped up its
efforts to enforce charities’ Schedule B obligations, sending
thousands of deficiency letters to charities that had not
complied with the Schedule B requirement. Since 2001,
both the Law Center and the Foundation had either filed
redacted versions of the Schedule B or not filed it with the
Attorney General at all. Each plaintiff had, however,
annually filed a complete Schedule B with the IRS. In 2012,
the Registry Unit informed the Law Center it was deficient
in submitting Schedule B information. In 2013, it informed
the Foundation of the same deficiency.
C.
In response to the Attorney General’s demands, the Law
Center and the Foundation separately filed suit, alleging that
the Schedule B requirement unconstitutionally burdens their
First Amendment right to free association by deterring
individuals from financially supporting them. The district
court granted both plaintiffs’ motions for a preliminary
injunction, concluding they had raised serious questions
going to the merits of their cases and demonstrated that the

12

AMERICANS FOR PROSPERITY V. BECERRA

balance of hardships tipped in their favor. See Americans
for Prosperity Found. v. Harris, No. 2:14-CV-09448-RFFM, 2015 WL 769778 (C.D. Cal. Feb. 23, 2015). The
Attorney General appealed.
While those appeals were pending, we upheld the
Schedule B requirement against a facial constitutional
challenge brought by the Center for Competitive Politics.
See Ctr. for Competitive Politics v. Harris, 784 F.3d 1307,
1317 (9th Cir. 2015). Applying exacting scrutiny, we held
both that the Schedule B requirement furthers California’s
compelling interest in enforcing its laws and that the plaintiff
had failed to show the requirement places an actual burden
on First Amendment rights. See id. at 1316–17. We left
open the possibility, however, that a future litigant might
“show ‘a reasonable probability that the compelled
disclosure of its contributors’ names will subject them to
threats, harassment, or reprisals from either Government
officials or private parties’ that would warrant relief on an
as-applied challenge.” Id. at 1317 (alteration omitted)
(quoting Buckley v. Valeo, 424 U.S. 1, 74 (1976)).
The Law Center and the Foundation argue they have
made such a showing. In considering the appeal from the
preliminary injunction in their favor, we disagreed. See
AFPF I, 809 F.3d at 540. We held that the plaintiffs had
shown neither an actual chilling effect on association nor a
reasonable probability of harassment at the hands of the state
from the Attorney General’s demand for nonpublic
disclosure of Schedule B forms. See id. The Law Center
and the Foundation had proffered some evidence that private
citizens might retaliate against their contributors if Schedule
B information became public, but “[t]he plaintiffs’
allegations that technical failures or cybersecurity breaches
are likely to lead to inadvertent public disclosure of their

AMERICANS FOR PROSPERITY V. BECERRA

13

Schedule B forms [were] too speculative to support issuance
of an injunction.” Id. at 541.
We nevertheless identified some risk that the Attorney
General could be compelled by § 12590 to make Schedule B
information available for public inspection in the absence of
a “rule[]” or “regulation[],” Cal. Gov’t Code § 12590,
formalizing the Attorney General’s discretionary policy of
maintaining Schedule B confidentiality. See AFPF I,
809 F.3d at 542. The Attorney General had proposed a
regulation to exempt Schedule B forms from the general
requirement to make Registry filings “open to public
inspection,” Cal. Gov’t Code § 12590, but the state had not
yet adopted the proposed regulation. We held that a narrow
injunction precluding public disclosure of Schedule B
information would address the risk of public disclosure
pending the Attorney General’s adoption of the proposed
regulation. We therefore vacated the district court’s orders
precluding the Attorney General from collecting Schedule B
information from the plaintiffs and instructed the court to
enter new orders preliminarily enjoining the Attorney
General only from making Schedule B information public.
See AFPF I, 809 F.3d at 543. 2
After presiding over a bench trial in each case, the
district court held the Schedule B requirement
unconstitutional as applied to the Foundation and the Law
Center. See Thomas More Law Ctr. v. Harris, No. CV 153048-R, 2016 WL 6781090 (C.D. Cal. Nov. 16, 2016);
Americans for Prosperity Found. v. Harris, 182 F. Supp. 3d
On remand, the district court also prohibited the Attorney General
from obtaining relevant discovery from the Foundation’s contributors.
This was one of several questionable evidentiary rulings the court issued
in the plaintiffs’ favor.
2

14

AMERICANS FOR PROSPERITY V. BECERRA

1049 (C.D. Cal. 2016). The district court first rejected the
plaintiffs’ facial challenges, holding they were precluded by
our opinion in Center for Competitive Politics. It then held
that the Attorney General had failed to prove the Schedule B
requirement was substantially related to a sufficiently
important governmental interest, as necessary to withstand
exacting scrutiny. The court reasoned that the Attorney
General had no need to collect Schedule Bs, because he “has
access to the same information from other sources,” Thomas
More Law Ctr., 2016 WL 6781090, at *2, and had failed to
demonstrate the “necessity of Schedule B forms” in
investigating charity wrongdoing, Americans for Prosperity
Found., 182 F. Supp. 3d at 1053. The court also concluded
there was “ample evidence” establishing the plaintiffs’
employees and supporters face public hostility, intimidation,
harassment and threats “once their support for and affiliation
with the organization becomes publicly known.” Id. at 1055.
The court rejected the proposition that the Attorney
General’s informal confidentiality policy could “effectively
avoid inadvertent disclosure” of Schedule B information,
citing a “pervasive, recurring pattern of uncontained
Schedule B disclosures” by the Registry Unit. Id. at 1057.
Even after the Attorney General codified the non-disclosure
policy, the court concluded that this risk of inadvertent
public disclosure remained. See Thomas More Law Ctr.,
2016 WL 6781090, at *5.
Having found for the plaintiffs on their First Amendment
freedom of association claims, the court entered judgment
for the plaintiffs and permanently enjoined the Attorney
General from enforcing the Schedule B requirement against
them. The Attorney General appealed the judgments. The
plaintiffs cross-appealed, challenging the district court’s
holding that precedent foreclosed a facial attack on the
Schedule B requirement. The Law Center also cross-

AMERICANS FOR PROSPERITY V. BECERRA

15

appealed the district court’s adverse rulings on its Fourth
Amendment and preemption claims, and the district court’s
failure to award it attorney’s fees.
II.
“In reviewing a judgment following a bench trial, this
court reviews the district court’s findings of fact for clear
error and its legal conclusions de novo.” Dubner v. City &
County of San Francisco, 266 F.3d 959, 964 (9th Cir. 2001).
“[W]e will affirm a district court’s factual finding unless that
finding is illogical, implausible, or without support in
inferences that may be drawn from the record.” United
States v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009) (en
banc) (footnote omitted).
III.
We address whether the Attorney General’s Schedule B
requirement violates the First Amendment right to freedom
of association as applied to the plaintiffs. We apply
“exacting scrutiny” to disclosure requirements. See Doe v.
Reed, 561 U.S. 186, 196 (2010). “That standard ‘requires a
substantial relation between the disclosure requirement and
a sufficiently important governmental interest.’”
Id.
(quoting Citizens United v. FEC, 558 U.S. 310, 366–67
(2010)). “To withstand this scrutiny, ‘the strength of the
governmental interest must reflect the seriousness of the
actual burden on First Amendment rights.’” Id. (quoting
Davis v. FEC, 554 U.S. 724, 744 (2008)).
The plaintiffs contend “[t]he ‘substantial relation’
element requires, among other things, that the State employ
means ‘narrowly drawn’ to avoid needlessly stifling
expressive association.” They cite Louisiana ex rel.
Gremillion v. NAACP, 366 U.S. 293, 297 (1961) (“[W]hile

16

AMERICANS FOR PROSPERITY V. BECERRA

public safety, peace, comfort, or convenience can be
safeguarded by regulating the time and manner of
solicitation, those regulations need to be ‘narrowly drawn to
prevent the supposed evil.’” (citation omitted) (quoting
Cantwell v. Connecticut, 310 U.S. 296, 307 (1940))), Shelton
v. Tucker, 364 U.S. 479, 488 (1960) (“In a series of decisions
this Court has held that, even though the governmental
purpose be legitimate and substantial, that purpose cannot be
pursued by means that broadly stifle fundamental personal
liberties when the end can be more narrowly achieved.”),
and McCutcheon v. FEC, 134 S. Ct. 1434, 1456–57 (2014)
(plurality opinion) (“Even when the Court is not applying
strict scrutiny, we still require ‘a fit that is not necessarily
perfect, but reasonable; that represents not necessarily the
single best disposition but one whose scope is in proportion
to the interest served, . . . that employs not necessarily the
least restrictive means but . . . a means narrowly tailored to
achieve the desired objective.’” (alterations in original)
(quoting Board of Trustees of State Univ. of N.Y. v. Fox,
492 U.S. 469, 480 (1989))). We are not persuaded, however,
that the standard the plaintiffs advocate is distinguishable
from the ordinary “substantial relation” standard that both
the Supreme Court and this court have consistently applied
in disclosure cases such as Doe and Family PAC v.
McKenna, 685 F.3d 800, 805–06 (9th Cir. 2012). To the
extent the plaintiffs ask us to apply the kind of “narrow
tailoring” traditionally required in the context of strict
scrutiny, or to require the state to choose the least restrictive
means of accomplishing its purposes, they are mistaken.
See, e.g., Citizens United v. Schneiderman, 882 F.3d 374,
381 (2d Cir. 2018) (rejecting the plaintiffs’ request “to apply
strict scrutiny and to hold that any mandatory disclosure of
a member or donor list is unconstitutional absent a
compelling government interest and narrowly drawn
regulations furthering that interest”); AFPF I, 809 F.3d at

AMERICANS FOR PROSPERITY V. BECERRA

17

541 (“The district court’s conclusion that the Attorney
General’s demand for national donor information may be
more intrusive than necessary does not raise serious
questions because ‘exacting scrutiny is not a leastrestrictive-means test.’” (quoting Chula Vista Citizens for
Jobs & Fair Competition v. Norris, 782 F.3d 520, 541 (9th
Cir. 2015) (en banc))); Ctr. for Competitive Politics,
784 F.3d at 1312 (“[The plaintiff’s argument] that the
Attorney General must have a compelling interest in the
disclosure requirement, and that the requirement must be
narrowly tailored in order to justify the First Amendment
harm it causes[,] . . . is a novel theory, but it is not supported
by our case law or by Supreme Court precedent.”).
In short, we apply the “substantial relation” standard the
Supreme Court applied in Doe. “To withstand this scrutiny,
‘the strength of the governmental interest must reflect the
seriousness of the actual burden on First Amendment
rights.’” Doe, 561 U.S. at 196 (quoting Davis, 554 U.S. at
744).
A. The Strength of the Governmental Interest
It is clear that the disclosure requirement serves an
important governmental interest. In Center for Competitive
Politics, 784 F.3d at 1311, we recognized the Attorney
General’s argument that “there is a compelling law
enforcement interest in the disclosure of the names of
significant donors.” See also id. at 1317. The Attorney
General observed that “such information is necessary to
determine whether a charity is actually engaged in a
charitable purpose, or is instead violating California law by
engaging in self-dealing, improper loans, or other unfair
business practices,” id. at 1311, and we agreed that “[t]he
Attorney General has provided justifications for employing
a disclosure requirement instead of issuing subpoenas,” id.

18

AMERICANS FOR PROSPERITY V. BECERRA

at 1317. In AFPF I, we reiterated that “the Attorney
General’s authority to demand and collect charitable
organizations’ Schedule B forms . . . furthers California’s
compelling interest in enforcing its laws.” AFPF I, 809 F.3d
at 538–39.
These conclusions are consistent with those reached by
the Second Circuit, which recently upheld New York’s
Schedule B disclosure requirement against a challenge
similar to the one presented here. The attorney general
explained that the Schedule B disclosure requirement allows
him to carry out “his responsibility to protect the public from
fraud and self-dealing among tax-exempt organizations.”
Schneiderman, 882 F.3d at 382. The court agreed with the
state that
knowing the source and amount of large
donations can reveal whether a charity is
doing business with an entity associated with
a major donor. The information in a
Schedule B also permits detection of schemes
such as the intentional overstatement of the
value of noncash donations in order to justify
excessive salaries or perquisites for its own
executives. Collecting donor information on
a regular basis from all organizations
facilitates investigative efficiency, and can
help the Charities Bureau to obtain a
complete picture of the charities’ operations
and flag suspicious activity simply by using
information already available to the IRS.
Because fraud is often revealed not by a
single smoking gun but by a pattern of
suspicious behavior, disclosure of the

AMERICANS FOR PROSPERITY V. BECERRA

19

Schedule B can be essential to New York’s
interest in detecting fraud.
Id. (alterations, citations and internal quotation marks
omitted). The Schedule B requirement, therefore, served the
state’s important “interests in ensuring organizations that
receive special tax treatment do not abuse that privilege and
. . . in preventing those organizations from using donations
for purposes other than those they represent to their donors
and the public.” Id.
The plaintiffs nonetheless question the strength of the
state’s governmental interest, arguing the Attorney
General’s need to collect Schedule B information is belied
by the evidence that he does not use the information
frequently enough to justify collecting it en masse, he is able
to investigate charities without Schedule B information and
he does not review individual Schedule B forms until he
receives a complaint, at which point he has at his disposal
tools of subpoena and audit to obtain the Schedule B
information he needs. The district court credited these
arguments, concluding that Schedule B information is not
“necessary” to the Attorney General’s investigations
because: the Registry, whose sole job it is to collect and
maintain complete registration information, does not
actively review Schedule B forms as they come in; Schedule
Bs have not been used to trigger investigations; and the
Attorney General can obtain a Schedule B through
subpoenas and audits when a case-specific need arises. See
Americans for Prosperity Found., 182 F. Supp. 3d at 1053–
54.
We addressed these same arguments, of course, in
Center for Competitive Politics, 784 F.3d at 1317, where we
expressly rejected the proposition that the Schedule B

20

AMERICANS FOR PROSPERITY V. BECERRA

requirement is insufficiently tailored because the state could
achieve its enforcement goals through use of its subpoena
power or audit letters. We noted that the state’s quick access
to Schedule B filings “increases [the Attorney General’s]
investigative efficiency” and allows him to “flag suspicious
activity.” Id. For example, as the Attorney General argued
in that case,
having significant donor information allows
the Attorney General to determine when an
organization has inflated its revenue by
overestimating the value of “in kind”
donations. Knowing the significant donor’s
identity allows her to determine what the “in
kind” donation actually was, as well as its
real value.
Thus, having the donor’s
information immediately available allows her
to identify suspicious behavior. She also
argues that requiring unredacted versions of
Form 990 Schedule B increases her
investigative efficiency and obviates the need
for expensive and burdensome audits.
Id. at 1311.
The evidence at trial confirms our earlier conclusions.
Belinda Johns, the senior assistant attorney general who
oversaw the Charitable Trusts Section for many years,
testified that attempting to obtain a Schedule B from a
regulated entity after an investigation began was
unsatisfactory. She testified that her office would want “to
look at [the] Schedule B . . . the moment we thought there
might be an issue with the charity.” “[I]f we subpoenaed it
or sent a letter to the charity, that would tip them off to our
investigation, which would allow them potentially to

AMERICANS FOR PROSPERITY V. BECERRA

21

dissipate more assets or hide assets or destroy documents,
which certainly happened several times; or it just allows
more damage to be done to [the] charity if we don’t have the
whole document at the outset.” Rather than having “to wait
extra days,” she wanted to “take the action that needs to be
taken as quickly as possible.” She explained that her office
relied on Schedule Bs to “tell us whether or not there was an
illegal activity occurring.” Where such activity was found,
she would “go into court immediately and . . . request a
[temporary restraining order] from the court to freeze
assets.”
Johns’ successor, Tania Ibanez, testified similarly that
“getting a Schedule B through a[n] audit letter is not the best
use of my limited resources.”
Because it’s time-consuming, and you are
tipping the charity off that they are about to
be audited. And it’s been my experience
when the charity knows or when the charity
gets the audit letter, it’s not the best way of
obtaining records. We have been confronted
in situations where the charity will fabricate
records. Charities have given us incomplete
records, nonresponsive records. Charities
have destroyed records, and charities have
engaged in other dilatory tactics.
Sonja Berndt, a deputy attorney general in the Charitable
Trusts Section, confirmed that attempting to obtain Schedule
Bs through the auditing process would entail substantial
delay.
The district court’s other conclusions are equally flawed.
Although the state may not routinely use Schedule B
information as it comes in, the Attorney General offered

22

AMERICANS FOR PROSPERITY V. BECERRA

ample evidence of the ways his office uses Schedule B
information in investigating charities that are alleged to have
violated California law. See Cal. Corp. Code §§ 5227, 5233,
5236 (providing examples of the role the Attorney General
plays in investigating nonprofit organizations that violate
California law). Current and former members of the
Charitable Trusts Section, for example, testified that they
found the Schedule B particularly useful in several
investigations over the past few years, and provided
examples. They were able to use Schedule B information to
trace money used for improper purposes in connection with
a charity serving animals after Hurricane Katrina; to identify
a charity’s founder as its principal contributor, indicating he
was using the research charity as a pass-through; to identify
self-dealing in that same charity; to track a for-profit
corporation’s use of a non-profit organization as an improper
vessel for gain; and to investigate a cancer charity’s gift-inkind fraud. 3
In sum, the record demonstrates that the state has a
strong interest in the collection of Schedule B information
from regulated charities. We agree with the Second Circuit
that the disclosure requirement “clearly further[s]” the
state’s “important government interests” in “preventing
fraud and self-dealing in charities . . . by making it easier to
police for such fraud.” Schneiderman, 882 F.3d at 384.
The Foundation points out that the Attorney General identified
only five investigations in the past 10 years in which the state has used
Schedule B information to investigate a charity. The Attorney General,
however, identified an additional five investigations that were still
ongoing. The district court did not allow the Attorney General’s
witnesses to testify about those ongoing investigations, because the
Attorney General understandably refused to name the charities under
current investigation.
3

AMERICANS FOR PROSPERITY V. BECERRA

23

The district court reached a different conclusion, but it
did so by applying an erroneous legal standard. The district
court required the Attorney General to demonstrate that
collection of Schedule B information was “necessary,”
Thomas More Law Ctr., 2016 WL 6781090, at *2, that it was
no “more burdensome than necessary” and that the state
could not achieve its ends “by more narrowly tailored
means,” id. at *2–3. Because it was “possible for the
Attorney General to monitor charitable organizations
without Schedule B,” the court concluded the requirement is
unconstitutional. Id. at *2. The “more burdensome than
necessary” test the district court applied, however, is
indistinguishable from the narrow tailoring and leastrestrictive-means tests that we have repeatedly held do not
apply here. The district court’s application of this standard,
therefore, constituted legal error.
Because the district court applied an erroneous legal
standard, it consistently framed the legal inquiry as whether
it was possible “that the Attorney General could accomplish
her goals without the Schedule B.” Id. at *3. Under the
substantial relation test, however, the state was not required
to show that it could accomplish its goals only by collecting
Schedule B information. The state instead properly and
persuasively relied on evidence to show that the up-front
collection of Schedule B information improves the
efficiency and efficacy of the Attorney General’s important
regulatory efforts. Even if the Attorney General can achieve
his goals through other means, nothing in the substantial
relation test requires him to forgo the most efficient and
effective means of doing so, at least not absent a showing of
a significant burden on First Amendment rights. As Steven
Bauman, a supervising investigative auditor for the
Charitable Trusts Section testified, “We could complete our

24

AMERICANS FOR PROSPERITY V. BECERRA

investigations if you took away many of the tools that we
have. We just wouldn’t be as effective or as efficient.”
Because the strict necessity test the district court applied
is not the law, the district court’s analysis does not alter our
conclusion that the state has a strong interest in the collection
of Schedule B information from regulated charities.
B. The Seriousness of the Actual Burden on First
Amendment Rights
Having considered the strength of the governmental
interest, we turn to the actual burden on the plaintiffs’ First
Amendment rights.
The Supreme Court has concluded that “compelled
disclosure has the potential for substantially infringing the
exercise of First Amendment rights.” Buckley v. Valeo,
424 U.S. 1, 66 (1976). To assess “the possibility that
disclosure will impinge upon protected associational
activity,” id. at 73, we consider “any deterrent effect on the
exercise of First Amendment rights,” id. at 65.
We may examine, for example, the extent to which
requiring “disclosure of contributions . . . will deter some
individuals who otherwise might contribute,” including
whether disclosure will “expose contributors to harassment
or retaliation.” Id. at 68. “[T]hat one or two persons refused
to make contributions because of the possibility of
disclosure” will not establish a significant First Amendment
burden. Id. at 72. Nor will a showing that “people may
‘think twice’ about contributing.” Family PAC, 685 F.3d at
807. “[D]isclosure requirements,” however, “can chill
donations to an organization by exposing donors to
retaliation,” Citizens United, 558 U.S. at 370, and “[i]n some
instances fears of reprisal may deter contributions to the

AMERICANS FOR PROSPERITY V. BECERRA

25

point where the movement cannot survive,” Buckley,
424 U.S. at 71. In such cases, the First Amendment burdens
are indeed significant.
A party challenging a disclosure requirement, therefore,
may succeed by proving “a substantial threat of harassment.”
Id. at 74. As a general matter, “those resisting disclosure can
prevail under the First Amendment if they can show ‘a
reasonable probability that the compelled disclosure of
personal information will subject them to threats,
harassment, or reprisals from either Government officials or
private parties.’” Doe, 561 U.S. at 200 (alteration omitted)
(quoting Buckley, 424 U.S. at 74); see also Citizens United,
558 U.S. at 370. 4
Here, the plaintiffs contend requiring them to comply
with the Attorney General’s Schedule B disclosure
requirement will impose a significant First Amendment
burden in two related ways. First, they contend requiring
them to comply with the Schedule B requirement will deter
contributors. Second, they argue disclosure to the Attorney

In making this showing, we agree with the Attorney General that
the plaintiffs must show a reasonable probability of threats, harassment
or reprisals arising from the Schedule B requirement itself. But this does
not mean the plaintiffs cannot rely on evidence showing, for example,
that their members have been harassed for other reasons, or evidence that
similar organizations have suffered a loss in contributions as a result of
Schedule B disclosure. To be sure, the extent to which the plaintiffs’
evidence is tied directly to, or is attenuated from, the experience of the
plaintiffs themselves and the California Attorney General’s Schedule B
requirement in particular goes to the weight of that evidence. But the
plaintiffs may rely on any evidence that “has any tendency to make a fact
more or less probable than it would be without the evidence.” Fed. R.
Evid. 401(a).
4

26

AMERICANS FOR PROSPERITY V. BECERRA

General will subject their contributors to threats, harassment
and reprisals. We consider these contentions in turn.
1. Evidence That Disclosure Will Deter Contributors
We begin by considering whether disclosure will deter
contributors. We first consider evidence presented by the
Foundation. We then consider evidence presented by the
Law Center.
Christopher Joseph Fink, the Foundation’s chief
operating officer, testified that prospective contributors’
“number one concern is about being disclosed.” He testified
that “they are afraid to have their information in the hands of
state government or a federal government or in the hands of
the public.” He testified that business owners “are afraid if
they are associated with our foundation or with Americans
for Prosperity, their businesses would be targeted or audited
from the state government.” Teresa Oelke, the Foundation’s
vice president of state operations, described two individuals
who, she believed, stopped supporting the Foundation in
light of actual or feared retaliation by the IRS. One
contributor “did business with the Government,” and he and
his business associates “did not feel like they could take on
the risk of continuing to give to us.” Another contributor
allegedly stopped giving “because he, his business partner
and their business had experienced seven different reviews
from government agencies, including individual IRS audits,
both personally and their businesses, and their family was
not willing to continue enduring the emotional, financial,
time stress and the stress that it placed on their business.”
Oelke testified that, on average, the Foundation and
Americans for Prosperity combined lose “roughly three
donors a year” due to “their concern that they are going to
be disclosed and the threats that they believe that being
disclosed lays to either their business, their families or just

AMERICANS FOR PROSPERITY V. BECERRA

27

their employees.” Paul Schervish, an emeritus professor of
sociology, testified that, in his opinion, disclosure to the
California Attorney General would chill contributions to the
Foundation, although he conceded that he had not actually
spoken to any of the Foundation’s contributors. Foundation
President Tim Phillips testified that contributors see the
California Attorney General’s office as “a powerful partisan
office.” The Foundation also points to evidence that, in its
view, shows that some California officials harbor a negative
attitude toward Charles and David Koch.
The Law Center introduced a letter from a contributor
who chose to make a $25 contribution anonymously out of
fear that ISIS would break into the Law Center’s office,
obtain a list of contributors and target them. Schervish, the
sociology professor, opined that the Law Center’s
“disclosure of Schedule B to the registry would chill
contributions.” He acknowledged, however, that he had not
spoken with any of the Law Center’s existing or prospective
contributors, and he could not point to any contributor who
had reduced or eliminated his or her support for the Law
Center due to the fear of disclosure – a common weakness in
the Law Center’s evidence.
For example, Thomas Monaghan, the Law Center’s cofounder and most well-known contributor, testified that he is
not aware of any Law Center contributor who was “harassed
in some way because they made a donation.” Despite being
included “at the top of a list . . . of the most antigay persons
in the country” (allegedly because of his financial support
for the Law Center), he remains “perfectly willing” to be
listed on the Law Center’s website as “one of the people who
helped to establish” the Law Center. Similarly, the Law
Center’s president testified that he has never had a
conversation with a potential contributor who was unwilling

28

AMERICANS FOR PROSPERITY V. BECERRA

to contribute to the Law Center because of the public
controversy surrounding the Law Center or its disclosure
requirements. For years, moreover, the Law Center has
over-disclosed contributor information on Schedule Bs filed
with the IRS. Although by law the Law Center is required
to disclose only those contributors furnishing 2 percent or
more of the organization’s receipts (about five to seven
contributors a year), it has instead chosen to disclose all
contributors providing $5,000 or more in financial support
(about 23 to 60 contributors a year). This voluntary overdisclosure tends to undermine the Law Center’s contention
that Schedule B disclosure meaningfully deters
contributions.
Considered as a whole, the plaintiffs’ evidence shows
that some individuals who have or would support the
plaintiffs may be deterred from contributing if the plaintiffs
are required to submit their Schedule Bs to the Attorney
General. The evidence, however, shows at most a modest
impact on contributions. Ultimately, neither plaintiff has
identified a single individual whose willingness to contribute
hinges on whether Schedule B information will be disclosed
to the California Attorney General. Although there may be
a small group of contributors who are comfortable with
disclosure to the IRS, but who would not be comfortable
with disclosure to the Attorney General, the evidence does
not show that this group exists or, if it does, its magnitude.
As the Second Circuit explained:
While we think it plausible that some donors
will find it intolerable for law enforcement
officials to know where they have made
donations, we see no reason to believe that
this risk of speech chilling is more than that
which comes with any disclosure regulation.

AMERICANS FOR PROSPERITY V. BECERRA

29

In fact, all entities to which these
requirements apply already comply with the
federal law mandating that they submit the
selfsame information to the IRS. Appellants
offer nothing to suggest that their donors
should more reasonably fear having their
identities known to New York’s Attorney
General than known to the IRS.
Schneiderman, 882 F.3d at 384.
The mere possibility that some contributors may choose
to withhold their support does not establish a substantial
burden on First Amendment rights. A plaintiff cannot
establish a significant First Amendment burden by showing
only “that one or two persons refused to make contributions
because of the possibility of disclosure,” Buckley, 424 U.S.
at 72, or that “people may ‘think twice’ about contributing,”
Family PAC, 685 F.3d at 807. The evidence presented by
the plaintiffs here does not show that disclosure to the
Attorney General will “actually and meaningfully deter
contributors,” id., or that disclosure would entail “the
likelihood of a substantial restraint upon the exercise by
[their contributors] of their right to freedom of association,”
NAACP v. Alabama ex rel. Patterson, 357 U.S. 449, 462
(1958). 5 Cf. Bates. v. City of Little Rock, 361 U.S. 516, 521
n.5 (1960) (between 100 and 150 members declined to renew
their NAACP membership, citing disclosure concerns); Dole
“In NAACP, the Court was presented . . . with ‘an uncontroverted
showing that on past occasions revelation of the identity of its rank-andfile members has exposed those members to economic reprisal, loss of
employment, [and] threat of physical coercion,’ and it was well known
at the time that civil rights activists in Alabama and elsewhere had been
beaten and/or killed.” Schneiderman, 882 F.3d at 385 (second alteration
in original) (quoting NAACP, 357 U.S. at 462).
5

30

AMERICANS FOR PROSPERITY V. BECERRA

v. Serv. Emps. Union, AFL-CIO, Local 280, 950 F.2d 1456,
1460 (9th Cir. 1991) (placing particular weight on two letters
explaining that because meeting minutes might be disclosed,
union members would no longer attend meetings).
The Schedule B requirement, moreover, is not a
sweeping one. It requires the Foundation and the Law
Center to disclose only their dozen or so largest contributors,
and a number of these contributors are already publicly
identified, because they are private foundations which by
law must make their expenditures public. As applied to
these plaintiffs, therefore, the Schedule B requirement is a
far cry from the broad and indiscriminate disclosure laws
passed in the 1950s to harass and intimidate members of
unpopular organizations. See, e.g., Gremillion, 366 U.S. at
295 (invalidating a state law requiring every organization
operating in the state “to file with the Secretary of State
annually ‘a full, complete and true list of the names and
addresses of all of the members and officers’ in the State”);
Shelton, 364 U.S. at 480 (invalidating a state law
“compel[ing] every teacher, as a condition of employment in
a state-supported school or college, to file annually an
affidavit listing without limitation every organization to
which he has belonged or regularly contributed within the
preceding five years”).
In sum, the plaintiffs have not shown a significant First
Amendment burden on the theory that complying with the
Attorney General’s Schedule B nonpublic disclosure
requirement will chill contributions.

AMERICANS FOR PROSPERITY V. BECERRA

31

2. Evidence That Disclosure to the Attorney General
Will Subject Contributors to Threats, Harassment and
Reprisals
Alternatively, the plaintiffs seek to establish a First
Amendment burden by showing that, if they are required to
disclose their Schedule B information to the Attorney
General, there is “a reasonable probability that the
compelled disclosure of personal information will subject
[their contributors] to threats, harassment, or reprisals from
either Government officials or private parties.” Doe,
561 U.S. at 200 (alteration omitted) (quoting Buckley,
424 U.S. at 74). This inquiry necessarily entails two
questions: (1) what is the risk of public disclosure; and (2), if
public disclosure does occur, what is the likelihood that
contributors will be subjected to threats, harassment or
reprisals? We consider these questions in reverse order.
a. Likelihood of Retaliation
The first question, then, is whether the plaintiffs have
shown that contributors are likely to be subjected to threats,
harassment or reprisals if Schedule B information were to
become public. We again consider the Foundation’s
evidence first, followed by the Law Center’s evidence.
The Foundation’s evidence undeniably shows that some
individuals publicly associated with the Foundation have
been subjected to threats, harassment or economic reprisals.
Lucas Hilgemann, the Foundation’s chief executive officer,
testified that he was harassed and targeted, and his personal
information posted online, in connection with his work
surrounding union “right to work” issues in Wisconsin.
Charles and David Koch have received death threats, and
Christopher Fink, the Foundation’s chief operating officer,
has received death threats for publicly contributing to the

32

AMERICANS FOR PROSPERITY V. BECERRA

Foundation through his family’s private foundation. Art
Pope, a member of the Foundation’s board of directors, and
a contributor through his family foundation, testified that he
received a death threat and has been harassed by “a series of
articles” that falsely accuse him of “funding global warming
deni[al].” His businesses have been boycotted, although we
hesitate to attribute those boycotts to Pope’s association with
the Foundation. 6
In some cases, moreover, the Foundation’s actual or
perceived contributors may have faced economic reprisals or
other forms of harassment. Teresa Oelke, for instance, cited
a donor whose business was targeted by an
association, a reputable association in that
state. A letter was sent to all the school
boards in that state encouraging [them] to
Pope says his business, Variety Wholesalers, was boycotted in part
because of his affiliation with the Foundation. But Pope was the state
budget director of North Carolina and is publicly associated with a large
number of organizations and candidates. Despite publicly contributing
to the Foundation since 2004, and to the Foundation’s predecessor since
1993, he did not receive threats or negative attention until 2010, in
connection with his involvement in the North Carolina elections. This
same problem plagues much of the plaintiffs’ evidence. In many
instances, the evidence of harassment pertains to individuals who are
publicly identified with a number of controversial activities or
organizations, making it difficult to assess the extent to which the alleged
harassment was caused by a connection to the Foundation or the Law
Center in particular. Most of the individuals who have experienced
harassment, moreover, have been more than mere contributors, again
making it difficult to isolate the risk of harassment solely from being a
large contributor. The plaintiffs have presented little evidence bearing
on whether harassment has occurred, or is likely to occur, simply because
an individual or entity provided a large financial contribution to the
Foundation or the Law Center.
6

AMERICANS FOR PROSPERITY V. BECERRA

33

discontinue awarding this individual’s
business contracts because of his assumed
association with Americans for Prosperity
and
Americans
for
Prosperity
Foundation. . . . That individual reduced his
contributions in half, so from $500,000
annually to 250,000 based on the pressure
from his board that remains in place today.
Hilgemann, the Foundation’s CEO, suggested that during
the “right to work” campaign in Wisconsin in 2012, an
opposition group “pulled together a list of suspected donors
to the Foundation because of their interactions with groups
like ours in the past that had been publicized. [Opponents]
boycotted their businesses. They made personal and private
threats against them, their families and their business and
their employees.” 7
The Law Center, too, has presented some evidence to
suggest individuals associated with the Law Center have
experienced harassment, although it is less clear to what
extent it results solely from that association. The Law
Center, for instance, points to: a smattering of critical letters,
phone calls and emails it has received over the years; the
incident in which Monaghan was placed on a list of “the
most antigay persons in the country” after the Law Center
became involved in a controversial lawsuit; and threats and
Like much of the plaintiffs’ evidence, the harassment allegations
recounted by Oelke and Hilgemann are conclusory rather than detailed.
Although we understand the plaintiffs’ interest in protecting their
contributors’ identities from disclosure, we cannot imagine why the
plaintiffs have not provided more detailed evidence to substantiate and
develop their allegations of retaliation – something we are confident they
could have accomplished without compromising their contributors’
anonymity.
7

34

AMERICANS FOR PROSPERITY V. BECERRA

harassment its clients, such as Robert Spencer and Pamela
Geller, have received based on their controversial public
activities. As noted, however, Monaghan could not recall
any situation in which a contributor to the Law Center was
harassed, or expressed concerns about being harassed, on
account of having contributed to the Law Center.
On the one hand, this evidence plainly shows at least the
possibility that the plaintiffs’ Schedule B contributors would
face threats, harassment or reprisals if their information were
to become public. Such harassment, however, is not a
foregone conclusion. In 2013, after acquiring copies of the
Foundation’s 2001 and 2003 Schedule B filings, the
National Journal published an article publicly identifying
many of the Foundation’s largest contributors. 8 If, as the
plaintiffs contend, public disclosure of Schedule B
information would subject their contributors to widespread
retaliation, we would expect the Foundation to present
evidence to show that, following the National Journal’s
unauthorized Schedule B disclosure, its contributors were
harassed or threatened. No such evidence, however, has
been presented.
Ultimately, we need not decide whether the plaintiffs
have demonstrated a reasonable probability that the
compelled disclosure of Schedule B information would
subject their contributors to a constitutionally significant
level of threats, harassment or reprisals if their Schedule B
8
The record does not reflect how the National Journal acquired this
information. No one has suggested that the California Attorney
General’s office was the source, nor could it have been, as the
Foundation was not reporting its Schedule B contributors to the state in
2001 or 2003.

AMERICANS FOR PROSPERITY V. BECERRA

35

information were to become public. See Doe, 561 U.S. at
200. 9 As we explain next, we are not persuaded that there
exists a reasonable probability that the plaintiffs’ Schedule
B information will become public as a result of disclosure to
the Attorney General. Thus, the plaintiffs have not
established a reasonable probability of retaliation from
compliance with the Attorney General’s disclosure
requirement.
b. Risk of Public Disclosure
The parties agree that, as a legal matter, public disclosure
of Schedule B information is prohibited. California law
allows for public inspection of charitable trust records, with
the following exception:
Donor information exempt from public
inspection pursuant to Internal Revenue Code
section 6104(d)(3)(A) shall be maintained as
confidential by the Attorney General and
shall not be disclosed except as follows:
(1) In a court or administrative proceeding
brought pursuant to the Attorney General's
charitable trust enforcement responsibilities;
or

9
The district court concluded the plaintiffs have shown a
“reasonable probability” that public disclosure of their Schedule B
contributors would subject them to such threats and harassment.
Because this constitutes a mixed question of law and fact, however, we
review the question de novo. See In re Cherrett, 873 F.3d 1060, 1066
(9th Cir. 2017).

36

AMERICANS FOR PROSPERITY V. BECERRA
(2) In response to a search warrant.

Cal. Code Regs. tit. 11, § 310(b). 10 The plaintiffs argue,
however, that their Schedule B information may become
public because the Attorney General has a poor track record
of shielding the information from the public view.
We agree that, in the past, the Attorney General’s office
has not maintained Schedule B information as securely as it
should have, and we agree with the plaintiffs that this history
raises a serious concern. The state’s past confidentiality
lapses are of two varieties: first, human error when Registry
staff miscoded Schedule B forms during uploading; and
second, a software vulnerability that failed to block access
to the Foundation’s expert, James McClave, as he probed the
Registry’s servers for flaws during this litigation.
We are less concerned with the latter lapse. McClave
discovered that by manipulating the hexadecimal ending of
the URL corresponding to each file on the Registry website,
he could access a file that was confidential and did not
correspond to a clickable link on the website. That is,
although documents were deemed “confidential,” that meant
only that they were not visible to the public; it did not mean
they were not still housed on the public-facing Registry
website. By altering the single digit at the end of the URL,
McClave was able to access, one at a time, all 350,000 of the
Registry’s confidential documents. This lapse was a
The plaintiffs suggest California’s regulations are not as
protective as federal regulations because federal law imposes criminal
penalties for unauthorized disclosure of information on tax returns. See
26 U.S.C. § 7213. Federal law, however, criminalizes only willful
unauthorized disclosure; the differences between federal and California
law are therefore immaterial to risk of inadvertent public disclosure at
issue here.
10

AMERICANS FOR PROSPERITY V. BECERRA

37

singularity, stemming from an issue with the Attorney
General’s third-party security vendor. When it was brought
to the Attorney General’s attention during trial, the
vulnerability was quickly remedied. There is no evidence to
suggest that this type of error is likely to recur.
We are more concerned with human error. As part of an
iterative search on the public-facing website of the Registry,
McClave found approximately 1800 confidential Schedule
Bs that had been misclassified as public over several years.
The Attorney General promptly removed them from public
access, but some had remained on the website since 2012,
when the Registry began loading its documents to servers.
Much of this error can be traced to the large amount of
paper the Registry Unit processes around the same time each
year. The Registry Unit receives over 60,000 registration
renewals annually, and 90 percent are filed in hard copy. It
processes each by hand before using temporary workers and
student workers to scan them into an electronic record
system. The volume and tediousness of the work seems to
have resulted in some staff occasionally mismarking
confidential Schedule Bs as public and then uploading them
to the public-facing site.
Recognizing the serious need to protect confidentiality,
however, the Registry Unit has implemented stronger
protocols to prevent human error. It has implemented
“procedural quality checks . . . to sample work as it [is] being
performed” and to ensure it is “in accordance with
procedures on handling documents and [indexing them]
prior to uploading.” It has further implemented a system of
text-searching batch uploads before they are scanned to the
Registry site to ensure none contains Schedule B keywords.
At the time of trial in 2016, the Registry Unit had halted
batch uploads altogether in favor of loading each document

38

AMERICANS FOR PROSPERITY V. BECERRA

individually, as it was refining the text-search system. After
forms are loaded to the Registry, the Charitable Trusts
Section runs an automated weekly script to identify and
remove any documents that it had inadvertently
misclassified as public. There is also no dispute that the
Registry Unit immediately removes any information that an
organization identifies as having been misclassified for
public access.
Nothing is perfectly secure on the internet in 2018, and
the Attorney General’s data are no exception, but this factor
alone does not establish a significant risk of public
disclosure. As the Second Circuit recently explained, “[a]ny
form of disclosure-based regulation – indeed, any regulation
at all – comes with some risk of abuse. This background risk
does not alone present constitutional problems.”
Schneiderman, 882 F.3d at 383.
Although the plaintiffs have shown the state could afford
to test its own systems with more regularity, they have not
shown its cybersecurity protocols are deficient or
substandard as compared to either the industry or the IRS,
which maintains the same confidential information. 11 We
agree with the Second Circuit that “there is always a risk
Although the plaintiffs contend that the Charitable Trusts
Section’s protective measures are inadequate because they impose no
physical or technical impediments to prevent employees from emailing
Schedule Bs externally or printing them in the office, the record does not
show that the IRS maintains a more secure internal protocol for its
handling of Schedule B information or that the Charitable Trusts Section
is failing to meet any particular security standard. Nonetheless, we take
seriously the concerns raised here by the plaintiffs and amici, and we
encourage all interested parties to work cooperatively to ensure that
Schedule B information in the hands of the Attorney General remains
confidential.
11

AMERICANS FOR PROSPERITY V. BECERRA

39

somebody in the Attorney General’s office will let
confidential information slip notwithstanding an express
prohibition. But if the sheer possibility that a government
agent will fail to live up to her duties were enough for us to
assume those duties are not binding, hardly any government
action would withstand our positively philosophical
skepticism.” Id. at 384.
Although the district court appears to have concluded
that there is a high risk of public disclosure notwithstanding
the promulgation of § 310 and the Attorney General’s
adoption of additional security measures, the court appears
to have rested this conclusion solely on the state’s past
“inability to ensure confidentiality.” Thomas More Law
Ctr., 2016 WL 6781090, at *5. In light of the changes the
Attorney General has adopted since those breaches occurred,
however, the evidence does not support the inference that the
Attorney General is likely to inadvertently disclose either the
Law Center’s or the Foundation’s Schedule B in the future.
The risk of inadvertent disclosure of any Schedule B
information in the future is small, and the risk of inadvertent
disclosure of the plaintiffs’ Schedule B information in
particular is smaller still. To the extent the district court
found otherwise, that finding was clearly erroneous.
Given the slight risk of public disclosure, we cannot say
that the plaintiffs have shown “a reasonable probability that
the compelled disclosure of personal information will
subject them to threats, harassment, or reprisals.” See Doe,
561 U.S. at 200 (alteration omitted) (quoting Buckley,
424 U.S. at 74).
In sum, the plaintiffs have not shown that compliance
with the Attorney General’s Schedule B requirement will
impose significant First Amendment burdens. The plaintiffs
have not demonstrated that compliance with the state’s

40

AMERICANS FOR PROSPERITY V. BECERRA

disclosure
requirement
will
meaningfully
deter
contributions. Nor, in light of the low risk of public
disclosure, have the plaintiffs shown a reasonable
probability of threats, harassment or reprisals. Because the
burden on the First Amendment right to association is
modest, and the Attorney General’s interest in enforcing its
laws is important, Ctr. for Competitive Politics, 784 F.3d at
1317, “the strength of the governmental interest . . . reflect[s]
the seriousness of the actual burden on First Amendment
rights.” Doe, 561 U.S. at 196 (quoting Davis, 554 U.S. at
744). As applied to the plaintiffs, therefore, the Attorney
General’s Schedule B requirement survives exacting First
Amendment scrutiny.
IV.
The plaintiffs’ facial challenges also fail. In AFPF I, we
held that we were “bound by our holding in Center for
Competitive Politics, 784 F.3d at 1317, that the Attorney
General’s nonpublic Schedule B disclosure regime is
facially constitutional.” AFPF I, 809 F.3d at 538. That
holding constitutes the law of the case. See Ranchers
Cattlemen Action Legal Fund United Stockgrowers of Am. v.
U.S. Dep’t of Agric., 499 F.3d 1108, 1114 (9th Cir. 2007)
(“[T]he general rule [is] that our decisions at the preliminary
injunction phase do not constitute the law of the case. Any
of our conclusions on pure issues of law, however, are
binding.” (citations and internal quotation marks omitted)).
Even if we were to consider the facial challenges anew, the
evidence adduced at these trials does not prove the Schedule
B requirement “fails exacting scrutiny in a ‘substantial’
number of cases, ‘judged in relation to [its] plainly legitimate
sweep.’” Ctr. for Competitive Politics, 784 F.3d at 1315
(quoting United States v. Stevens, 559 U.S. 460, 473 (2010)).

AMERICANS FOR PROSPERITY V. BECERRA

41

We also reject the Law Center’s cross-appeal as to its
Fourth Amendment and preemption claims. These claims
were not proved at trial. We decline to consider the Law
Center’s motion for attorney’s fees because it was not
presented to the district court. Finally, we deny the Law
Center’s motion for judicial notice and the Attorney
General’s motion to strike portions of the Law Center’s reply
brief.
The judgments of the district court are reversed. The
permanent injunctions are vacated. The case is remanded for
entry of judgments in favor of the Attorney General.
INJUNCTIONS
VACATED;
REVERSED; CASES REMANDED.

JUDGMENTS

The Law Center’s motion for judicial notice, filed
February 12, 2018 (Dkt. 45, No. 16-56855) is DENIED.
The Attorney General’s motion to strike, filed February
13, 2018 (Dkt. 47, No. 16-56855), is DENIED.

EXHIBIT B

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff-Appellee,
v.

No. 16-55727
D.C. No.
2:14-cv-09448-R-FFM

XAVIER BECERRA, in his
Official Capacity as Attorney
General of the State of
California,
Defendant-Appellant.

AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his
Official Capacity as Attorney
General of the State of
California,
Defendant-Appellee.

No. 16-55786
D.C. No.
2:14-cv-09448-R-FFM

2

AFP V. BECERRA

THOMAS MORE LAW CENTER,
Plaintiff-Appellee,
v.

No. 16-56855
D.C. No.
2:15-cv-03048-R-FFM

XAVIER BECERRA, in his
Official Capacity as Attorney
General of the State of
California,
Defendant-Appellant.

THOMAS MORE LAW CENTER,
Plaintiff-Appellant,

No. 16-56902

v.

D.C. No.
2:15-cv-03048-R-FFM

XAVIER BECERRA, in his
Official Capacity as Attorney
General of the State of
California,
Defendant-Appellee.

ORDER DENYING
PETITIONS FOR
REHEARING EN
BANC

Filed March 29, 2019
Before: Raymond C. Fisher, Richard A. Paez,
and Jacqueline H. Nguyen, Circuit Judges.
Order;
Dissent by Judge Ikuta;
Reply to Dissent by Judges Fisher, Paez, and Nguyen

AFP V. BECERRA

3

SUMMARY*

Civil Rights
The panel denied petitions for rehearing en banc on behalf
of the court.
In its opinion, the panel held that California Attorney
General’s Service Form 990, Schedule B requirement, which
obligates charities to submit the information they file each
year with the Internal Revenue Service pertaining to their
largest contributors, survived exacting scrutiny as applied to
the plaintiffs because it was substantially related to an
important state interest in policing charitable fraud.
Dissenting from the denial of rehearing en banc, Judge
Ikuta, joined by Judges Callahan, Bea, Bennett and
R. Nelson, stated that the panel’s reversal of the district
court’s decision was based on appellate factfinding and was
contrary to the reasoning and spirit of decades of Supreme
Court jurisprudence, which affords substantial protections to
persons whose associational freedoms are threatened. Judge
Ikuta wrote that under the panel’s analysis, the government
can put the First Amendment associational rights of members
and contributors at risk for a list of names it does not need, so
long as it promises to do better in the future to avoid public
disclosure of the names. Judge Ikuta wrote that given the
inability of governments to keep data secure, the panel’s
standard puts anyone with controversial views at risk.

*
This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

4

AFP V. BECERRA

Responding to the dissent from the denial of rehearing en
banc, Judge Fisher, Paez and Nguyen stated that the panel’s
decision to apply exacting scrutiny was consistent with
Supreme Court precedent, Ninth Circuit precedent, and outof-circuit precedent. The panel noted that the two circuits
that have addressed the issue both have held that exacting,
rather than strict scrutiny apply and that the nonpublic
Schedule B reporting requirements satisfy the First
Amendment because they allow state and federal regulators
to protect the public from charitable fraud without subjecting
major contributors to the threats, harassment or reprisals that
could flow from public disclosure.

ORDER
Judge Paez and Judge Nguyen have voted to deny the
petitions for rehearing en banc and Judge Fisher has so
recommended.
The full court was advised of the petitions for rehearing
en banc. A judge requested a vote on whether to rehear the
matter en banc. The matter failed to receive a majority of the
votes of the nonrecused active judges in favor of en banc
consideration. Fed. R. App. P. 35.
The petitions for rehearing en banc (Nos. 16-55727 and
16-55786, filed September 25, 2018 - Dkt. 106; and Nos.
16-56855 and 16-56902, filed September 26, 2018 - Dkt. 67)
are DENIED.

AFP V. BECERRA

5

IKUTA, Circuit Judge, with whom CALLAHAN, BEA,
BENNETT, and R. NELSON, Circuit Judges, join, dissenting
from denial of rehearing en banc:
Controversial groups often face threats, public hostility,
and economic reprisals if the government compels the
organization to disclose its membership and contributor lists.
The Supreme Court has long recognized this danger and held
that such compelled disclosures can violate the First
Amendment right to association. See, e.g., NAACP v.
Alabama ex rel. Patterson, 357 U.S. 449, 462 (1958).
For this reason, the Supreme Court has given significant
protection to individuals who may be victimized by
compelled disclosure of their affiliations. Where government
action subjects persons to harassment and threats of bodily
harm, economic reprisal, or “other manifestations of public
hostility,” NAACP v. Alabama, 357 U.S. at 462, the
government must demonstrate a compelling interest, id.
at 463; Bates v. Little Rock, 361 U.S. 516, 524 (1960), there
must be a substantial relationship between the information
sought and the compelling state interest, Gibson v. Fla.
Legislative Investigation Comm., 372 U.S. 539, 546 (1963),
and the state regulation must “be narrowly drawn to prevent
the supposed evil,” Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293, 297 (1961) (internal quotation marks omitted)
(quoting Cantwell v. Connecticut, 310 U.S. 296, 307 (1940)).
This robust protection of First Amendment free
association rights was desperately needed here. In this case,
California demanded that organizations that were highly
controversial due to their conservative positions disclose most
of their donors, even though, as the district court found, the
state did not really need this information to accomplish its

6

AFP V. BECERRA

goals. Although the state is required to keep donor names
private, the district court found that the state’s promise of
confidentiality was illusory; the state’s database was
vulnerable to hacking and scores of donor names were
repeatedly released to the public, even up to the week before
trial. See Ams. for Prosperity Found. v. Harris, 182 F. Supp.
3d 1049, 1057 (C.D. Cal. 2016). Moreover, as the district
court found, supporters whose affiliation had previously been
disclosed experienced harassment and abuse. See id. at
1055 56. Their names and addresses, and even the addresses
of their children’s schools, were posted online along with
threats of violence. Some donors’ businesses were boycotted.
In one incident, a rally of the plaintiff’s supporters was
stormed by assailants wielding knives and box cutters, who
tore down the rally’s tent while the plaintiff’s supporters
struggled to avoid being trapped beneath it. In light of the
powerful evidence at trial, the district court held the
organizations and their donors were entitled to First
Amendment protection under the principles of NAACP v.
Alabama. See id. at 1055.
The panel’s reversal of the district court’s decision was
based on appellate factfinding and crucial legal errors. First,
the panel ignored the district court’s factfinding, holding
against all evidence that the donors’ names would not be
made public and that the donors would not be harassed. See
Ams. for Prosperity Found. v. Becerra, 903 F.3d 1000, 1017,
1019 (9th Cir. 2018) (“AFPF II”). Second, the panel declined
to apply NAACP v. Alabama, even though the facts squarely
called for it. See id. at 1008 09. Instead, the panel applied
a lower form of scrutiny adopted by the Supreme Court for
the unique electoral context. See Buckley v. Valeo, 424 U.S.
1, 64, 68 (1976). The panel’s approach will ensure that
individuals affiliated with controversial organizations

AFP V. BECERRA

7

effectively have little or no protection from compelled
disclosure. We should have taken this case en banc to correct
this error and bring our case law in line with Supreme Court
jurisprudence.
I
The Supreme Court has established a clear test for cases
like this one. While the Court has modified the test to fit
different contexts, it has not wavered from the principle that
the First Amendment affords organizations and individuals
substantial protection when the government tries to force
disclosure of ties that could impact their freedom of
association.
A
The Supreme Court decisions protecting against forced
disclosures that threaten individuals’ freedom of association
arose in a series of cases involving the NAACP. See, e.g.,
NAACP v. Alabama, 357 U.S. 449; Bates, 361 U.S. 516;
Gremillion, 366 U.S. 293; Gibson, 372 U.S. 539. The Court
considered numerous attempts by states to compel disclosure
of NAACP membership information at a time when those
members faced a well-known risk of “economic reprisal, loss
of employment, threat of physical coercion, and other
manifestations of public hostility.” NAACP v. Alabama,
357 U.S. at 462; see also Gremillion, 366 U.S. at 295 96;
Bates, 361 U.S. at 523 24.
In this broader context, the Court recognized that “[i]t is
hardly a novel perception that compelled disclosure of
affiliation with groups engaged in advocacy may constitute as
effective a restraint on freedom of association” as more direct

8

AFP V. BECERRA

restrictions on speech. NAACP v. Alabama, 357 U.S. at 462.
“[F]reedom of association for the purpose of advancing ideas
and airing grievances is protected by the Due Process Clause
of the Fourteenth Amendment from invasion by the States . . .
not only against heavy-handed frontal attack, but also from
being stifled by more subtle governmental interference.”
Bates, 361 U.S. at 523 (citations omitted).
Because state disclosure requirements can abridge First
Amendment associational rights, the Court held such
requirements were subject to heightened scrutiny. Once a
plaintiff carries the burden of showing that a state-required
disclosure may result “in reprisals against and hostility to the
members,” Gremillion, 366 U.S. at 296, the state has to
show: (1) a sufficiently compelling interest for requiring
disclosure, see NAACP v. Alabama, 357 U.S. at 462 63;
(2) that the means were substantially related to that interest,
Gibson, 372 U.S. at 549; and (3) that the means were
narrowly tailored, Gremillion, 366 U.S. at 296. While the
Supreme Court has articulated this three-part test in various
ways, it has made clear that the test affords substantial
protection to persons whose associational freedoms are
threatened.
B
The Court modified the NAACP v. Alabama test for
application in the electoral context. See Buckley, 424 U.S.
at 64, 68. Buckley recognized the importance of applying
“[t]he strict test established by NAACP v. Alabama . . .
because compelled disclosure has the potential for
substantially infringing the exercise of First Amendment
rights,” but it adjusted the test for government action that
affects elections when the plaintiffs could not establish that

AFP V. BECERRA

9

disclosure would subject them to threats or harassment. Id.
at 66. It makes sense to adapt the NAACP v. Alabama test for
the electoral context, where the government’s interest is
uniquely important. Influence in elections may result in
influence in government decisionmaking and the use of
political power; therefore, the government’s crucial interest
in avoiding the potential for corruption and hidden leverage
outweighs incidental infringement on First Amendment
rights. Id. at 66 68, 71. The interests served by disclosure
outside the electoral context, such as policing types of
charitable fraud, pale in comparison to the crucial importance
of ensuring our election system is free from corruption or its
appearance.
Given the unique electoral context, Buckley held that, for
the first prong, the governmental interest must be
“sufficiently important to outweigh the possibility of
infringement” of First Amendment rights; the government did
not need to show a compelling government interest. Id. at 66.
For the second prong, it still held there must be a “substantial
relation between the governmental interest and the
information required to be disclosed.” Id. at 64 (footnote and
internal quotation marks omitted) (quoting Gibson, 372 U.S.
at 547).
As to the third prong of the test, Buckley fashioned a per
se rule: it deemed the disclosure requirement to be “the least
restrictive means of curbing the evils of campaign ignorance
and corruption that Congress found to exist.” Id. at 68.
Buckley based this conclusion on its recognition that
Congress always has a substantial interest in combating voter
ignorance by providing the electorate with information about
the sources and recipients of funds used in political
campaigns in order to deter actual corruption and avoid the

10

AFP V. BECERRA

appearance of corruption, and in gathering data necessary to
detect violations of separate political contribution limits. Id.
at 66 68. Because, “in most applications,” disclosure is “the
least restrictive means of curbing the evils of campaign
ignorance and corruption,” the narrow tailoring prong of the
NAACP v. Alabama test is satisfied. Id. at 68.
Recognizing the distinction between elections and other
justifications for disclosure, the Supreme Court has applied
Buckley’s test only in cases that involve election-related
disclosures, a context in which the Supreme Court has already
established that disclosure is the least restrictive means of
reaching Congress’s goals. See, e.g., Doe v. Reed, 561 U.S.
186, 196 97 (2010); Citizens United v. FEC, 558 U.S. 310,
369 70 (2010). These cases did not discuss whether
disclosure was narrowly tailored to address the government’s
concern; Buckley already held that it is. For example, Doe v.
Reed recognized the government’s interest in “preserving the
integrity of the electoral process” and “promoting
transparency and accountability in the electoral process,” and
thus there was no need to discuss narrow tailoring. 561 U.S.
at 197 98. The Court likewise did not focus on the narrow
tailoring requirement in Citizens United, noting Buckley’s
holdings that “disclosure could be justified based on a
governmental interest in ‘provid[ing] the electorate with
information’ about the sources of election-related spending,”
and that “disclosure is a less restrictive alternative to more
comprehensive regulations of speech.” 558 U.S. at 367, 369
(quoting Buckley, 424 U.S. at 66).
The Court’s limited application of the Buckley test,
confined to cases in the electoral context in which the
government’s aim is to serve goals like “transparency and
accountability,” has not displaced the stringent standard set

AFP V. BECERRA

11

out in NAACP v. Alabama. Indeed, the NAACP v. Alabama
standard was likely not triggered in the election cases, given
that they did not involve evidence that compelled disclosure
would give rise to public hostility to the plaintiff’s members
or donors. The Court has maintained NAACP v. Alabama’s
standard outside of the electoral context, thus reasserting the
validity of that standard after Buckley. See, e.g., In re
Primus, 436 U.S. 412, 432 (1978) (holding that where a state
seeks to infringe upon a party’s First Amendment freedom of
association, the state must justify that infringement with “a
subordinating interest which is compelling” and must use
means that are “closely drawn to avoid unnecessary
abridgment of associational freedoms”) (first quoting Bates,
361 U.S. at 524; then quoting Buckley, 424 U.S. at 25); see
also Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984)
(holding that infringement of the right to associate “may be
justified by regulations adopted to serve compelling state
interests, unrelated to the suppression of ideas, that cannot be
achieved through means significantly less restrictive of
associational freedoms”). Thus, there is no doubt that the
NAACP v. Alabama test requiring a compelling government
interest, a substantial relation between the sought disclosure
and that interest, and narrow tailoring so the disclosure does
not infringe on First Amendment rights more than
necessary remains applicable for cases arising outside of the
electoral context, where a plaintiff needs its crucial protection
against forced disclosures that threaten critical associational
rights.
C
Until recently, the circuit courts, including the Ninth
Circuit, have agreed that NAACP v. Alabama is still good
law, and they have applied it when considering state action

12

AFP V. BECERRA

that has the effect of burdening individuals’ First Amendment
rights by requiring disclosure of associational information.1
In Familias Unidas v. Briscoe, for instance, the Fifth Circuit
struck down a Texas statute that empowered a county judge
to compel public disclosure of the names of organizations that
interfered with the operation of public schools. 619 F.2d 391,
394 (5th Cir. 1980). In that case, the judge had compelled
disclosure of the names of Mexican-American students and
adults who were members of a group seeking reform of the
Hondo public schools. The Fifth Circuit recognized that the
Supreme Court had upheld compulsory disclosures of
membership lists only when the underlying state interest is
compelling and legitimate, and the disclosure requirement is

See, e.g., United States v. Comley, 890 F.2d 539, 543–44 (1st Cir.
1989) (“Once [a prima facie showing of First Amendment infringement]
is made, the burden then shifts to the government to show both a
compelling need for the material sought and that there is no significantly
less restrictive alternative for obtaining the information.”); Wilson v.
Stocker, 819 F.2d 943, 949 (10th Cir. 1987) (“The law must be
substantially related to a compelling governmental interest, and must be
narrowly drawn so as to be the least restrictive means of protecting that
interest.”); Humphreys, Hutcheson, & Moseley v. Donovan, 755 F.2d
1211, 1222 (6th Cir. 1985) (upholding the challenged provisions in part
because they “are carefully tailored so that first amendment freedoms are
not needlessly curtailed”); Clark v. Library of Cong., 750 F.2d 89, 94
(D.C. Cir. 1984) (“[T]he government must demonstrate that the means
chosen to further its compelling interest are those least restrictive of
freedom of belief and association.”); Master Printers of Am. v. Donovan,
751 F.2d 700, 705 (4th Cir. 1984) (“To survive the ‘exacting scrutiny’
required by the Supreme Court, . . . the government must show that the
disclosure and reporting requirements are justified by a compelling
government interest, and that the legislation is narrowly tailored to serve
that interest.”); see also Perry v. Schwarzenegger, 591 F.3d 1147,
1159–61 (9th Cir. 2010); Dole v. Serv. Emps. Union, AFL CIO, Local
280, 950 F.2d 1456, 1461 (9th Cir. 1991); Brock v. Local 375, Plumbers
Int’l Union of Am., 860 F.2d 346, 350 (9th Cir. 1988).
1

AFP V. BECERRA

13

“drawn with sufficiently narrow specificity to avoid
impinging more broadly upon First Amendment liberties than
is absolutely necessary.” Id. at 399 (citing Buckley, 424 U.S.
at 68).
Our cases have likewise remained faithful to NAACP v.
Alabama. For example, Brock v. Local 375, Plumbers
International Union of America recognized that once a
plaintiff shows that disclosure will result in “harassment,
membership withdrawal, or discouragement of new
members,” or otherwise chill associational rights, heightened
scrutiny applies: the government must demonstrate that the
information sought “is rationally related to a compelling
governmental interest,” and that the disclosure requirement is
the least restrictive means of obtaining that information.
860 F.2d 346, 350 (9th Cir. 1988) (citing Buckley, 424 U.S.
at 64, 68; Shelton v. Tucker, 364 U.S. 479, 488 (1960)). We
reaffirmed this approach in Perry v. Schwarzenegger, where
we emphasized that “[i]nfringements on [the freedom to
associate] may be justified by regulations adopted to serve
compelling state interests, unrelated to the suppression of
ideas, that cannot be achieved through means significantly
less restrictive of associational freedoms.” 591 F.3d 1147,
1159 (9th Cir. 2010) (quoting Roberts, 468 U.S. at 623).2
In recent years, a few outliers have emerged and broken
from the uniform application of NAACP v. Alabama when
considering challenges to government-required disclosure.
We applied Buckley, rather than NAACP v. Alabama, in two
Although these cases cite both to Buckley and to cases setting out the
NAACP v. Alabama test, see, e.g., Brock, 860 F.2d at 350, they remain
faithful to the principles of NAACP v. Alabama by applying its heightened
scrutiny and requiring narrow tailoring.
2

14

AFP V. BECERRA

cases involving state disclosure requirements outside the
electoral context. See Ams. for Prosperity Found. v. Harris,
809 F.3d 536, 538 39 (9th Cir. 2015) (per curiam) (“AFPF
I”); Ctr. for Competitive Politics v. Harris, 784 F.3d 1307,
1312 14 (9th Cir. 2015) (“CCP”). The Second Circuit has
also recently applied Buckley’s test without a narrow
tailoring requirement to a challenge to a government
disclosure requirement outside of the electoral context. See
Citizens United v. Schneiderman, 882 F.3d 374, 382, 385 (2d
Cir. 2018). But none of these outliers offered a convincing
rationale for extending Buckley outside of the electoral
context. Equally important, none addressed a situation in
which a plaintiff showed a reasonable probability of threats
or hostility in the event of disclosure, see Schneiderman,
882 F.3d at 385; AFPF I, 809 F.3d at 541; CCP, 784 F.3d at
1314, which is a threshold requirement for the application of
NAACP v. Alabama’s test. Accordingly, these cases do not
bear on whether NAACP v. Alabama’s standard must be
applied when a plaintiff does make such a showing,
regardless whether the application of Buckley is appropriate
outside of the electoral context.
II
The facts of this case make clear that the Foundation is
entitled to First Amendment protection under NAACP v.
Alabama and that California’s disclosure requirement cannot
be constitutionally applied to the Foundation.
The Americans for Prosperity Foundation is a
conservative organization dedicated to “educating and

AFP V. BECERRA

15

training citizens to be advocates for freedom.”3 It develops
educational programs to “share knowledge and tools that
encourage participants to apply the principles of a free and
open society in their daily lives.”4
People publicly affiliated with the Foundation have often
faced harassment, hostility, and violence, as shown by the
evidence adduced at trial in this case. For example,
supporters have received threatening messages and packages,
had their addresses and children’s school addresses posted
online in an effort to intimidate them, and received death
threats.
One blogger posted a message stating he
contemplated assassinating a Foundation supporter: “I’m a
trained killer, you know, courtesy of U.S. taxpayers, and it
would be easy as pie to . . . take [him] out.” In the same vein,
a consultant working for the Foundation posted threats of
physical violence against Foundation employees. On a
different blog site, a person claiming that he worked at the
Foundation posted that he was “inside the belly of the beast,”
and could “easily walk in and slit [the Foundation CEO’s]
throat.”
Foundation supporters have also been subjected to
violence, not just threats. For instance, at a rally in Michigan,
several hundred protestors wielding knives and box cutters
surrounded the Foundation’s tent and sawed at the tent ropes
until they were severed. Foundation supporters were caught
under the tent when it collapsed, including elderly supporters

Ams. for Prosperity Found., http://americansforprosperityfoundation.org (last
visited March 11, 2019).
3

4

Id.

16

AFP V. BECERRA

who could not get out on their own. At least one supporter
was punched by the protestors.
Opponents of the Foundation have also targeted its
supporters with economic reprisal. For instance, after an
article published by Mother Jones magazine in February 2013
revealed donor information, protesters called for boycotts of
the businesses run by six individuals mentioned in the article.
Similarly, Art Pope, who served on the Foundation’s board of
directors, suffered boycotts of his business.
Given this history of harassment, the Foundation was
reluctant to make information about its donors public. This
concern became acute in 2010, when California suddenly
decided to enforce a long dormant disclosure law.
California law requires any entity that wishes to register
as a charitable organization to submit a multitude of tax
forms to the state. See Cal. Code Regs. tit. 11, § 301. Among
other requirements, California requires charitable
organizations to file a confidential federal tax form,
Schedule B to IRS Form 990, which contains the names and
addresses of any donors who meet certain criteria. See id.;
26 U.S.C. § 6033(b); 26 C.F.R. § 1.6033-2(a)(2)(iii)(a).
Under its regulations, California may release Schedule B only
in response to a search warrant or as needed in an
enforcement proceeding brought against a charity by the
Attorney General. See Cal. Code Regs. tit. 11, § 310(b). But
as discussed below, the state’s confidential information is so
vulnerable to hacks and inadvertent disclosure that
Schedule B information is effectively available for the taking.
In light of the Foundation’s confidentiality concerns, from
2001 to 2010, it registered as a charity in California without

AFP V. BECERRA

17

submitting the donor information its Schedule B contains.5
Over that entire period, California did not request the
Foundation’s Schedule B or list the Foundation’s registration
as a charity as deficient in any way. See AFPF II, 903 F.3d
at 1006 07.
In 2010, California suddenly increased its efforts to
collect charities’ Schedule Bs, and in 2013 the state notified
the Foundation that its registration was deficient because it
had not submitted Schedule B donor information. See id. at
1006. In an effort to protect its donors from likely threats and
hostility as backlash for their affiliation with the Foundation,
it filed suit seeking to enjoin California from enforcing this
requirement against it.
After a multi-day trial, the district court ruled that the
First Amendment protects the Foundation from forced
disclosure of its donor information,6 and it entered a
permanent injunction against California’s enforcement of the
Schedule B requirement as applied to the Foundation. See
Ams. for Prosperity Found., 182 F. Supp. 3d at 1059.

The Foundation’s Schedule B includes the names and addresses of
any person who donated more than 2 percent of the Foundation’s annual
contributions. See 26 C.F.R. § 1.6033-2(a)(2)(iii)(a).
5

The district court initially entered a preliminary injunction against
California’s enforcement against the Foundation. See AFPF II, 903 F.3d
at 1006. A panel of our court reversed in part on the ground that the
Foundation had not shown evidence of past hostility toward Foundation
donors or a reasonable probability of future hostility. See AFPF I,
809 F.3d at 539–41. On remand, the Foundation presented evidence of
both. See Ams. for Prosperity Found., 182 F. Supp. 3d 1049.
6

18

AFP V. BECERRA
III

The panel reversed, holding that California’s interest in
Schedule B information was “sufficiently important” and that
there was a substantial relation between the requirement and
the state’s interest. AFPF II, 903 F.3d at 1008 (quoting Doe,
561 U.S. at 196). In reaching this conclusion, the panel made
crucial factual and legal errors.
The panel’s legal error is evident. Although this case
arose outside of the election context, and the Foundation
established that its members might be exposed to harassment
and abuse if their identities were made public, the panel
mistakenly applied Buckley’s “exacting scrutiny” and rejected
the Foundation’s argument that a narrow tailoring
requirement applied in this context. See AFPF II, 903 F.3d
at 1008 09.
The panel’s factual errors are equally egregious. As a
general rule, appellate courts may not override the facts found
by a district court unless they are clearly erroneous. In our
circuit, “we will affirm a district court’s factual finding unless
that finding is illogical, implausible, or without support in
inferences that may be drawn from the record.” United States
v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009) (en banc).
Here, the panel not only failed to defer to the district court,
but reached factual conclusions that were unsupported by the
record.
First, the district court held that disclosure of the
Schedule B information to the state could result in the names
of the Foundation’s donors being released to the public. See
Ams. for Prosperity Found., 182 F. Supp. 3d at 1057. The
district court squarely rejected the state’s argument that no

AFP V. BECERRA

19

donor information disclosed to the state would be publicly
disclosed because it would remain confidential on the state’s
servers. See id. The evidence produced at trial in this case
provided overwhelming support for the court’s findings.
There was ample evidence of human error in the operation of
the state’s system. State employees were shown to have an
established history of disclosing confidential information
inadvertently, usually by incorrectly uploading confidential
documents to the state website such that they were publicly
posted. Such mistakes resulted in the public posting of
around 1,800 confidential Schedule Bs, left clickable for
anyone who stumbled upon them. AFPF II, 903 F.3d at 1018.
And the public did find them. For instance, in 2012 Planned
Parenthood become aware that a complete Schedule B for
Planned Parenthood Affiliates of California, Inc., for the 2009
fiscal year was publicly posted; the document included the
names and addresses of hundreds of donors.
There was also substantial evidence that California’s
computerized registry of charitable corporations was shown
to be an open door for hackers. In preparation for trial, the
plaintiff asked its expert to test the security of the registry.
He was readily able to access every confidential document in
the registry more than 350,000 confidential
documents merely by changing a single digit at the end of
the website’s URL. See AFPF II, 903 F.3d at 1018. When
the plaintiff alerted California to this vulnerability, its experts
tried to fix this hole in its system. Yet when the expert used
the exact same method the week before trial to test the
registry, he was able to find 40 more Schedule Bs that should
have been confidential.
In rejecting the district court’s factual conclusions, the
panel violated our standard of review as well as common

20

AFP V. BECERRA

sense. The panel concluded that in the future, all Schedule B
information would be kept confidential. It reasoned that
because the state technician was able to fix the security
vulnerability exposed by the Foundation’s expert, “[t]here is
no evidence to suggest that this type of error is likely to
recur.” Id. at 1018. The panel did not address the fact that
even a week before trial, the state could not prevent a second
disclosure based on the same security vulnerability. Further,
the panel claimed that despite the state’s long history of
inadvertent disclosure of Schedule B information through
human error, the state’s new efforts to correct human errors
through additional “procedural quality checks” and “a system
of text-searching batch uploads before they are scanned to the
Registry site to ensure none contains Schedule B keywords”
would obviate future disclosures. Id. But no evidence
supports this claim, and it is contrary to any real-world
experience.
Second, the district court found that the state did not have
a strong interest in obtaining the Schedule B submissions to
further its enforcement goals.
Instead, it held that
California’s up-front Schedule B submission requirement
“demonstrably played no role in advancing the Attorney
General’s law enforcement goals for the past ten years.”
Ams. for Prosperity Found., 182 F. Supp. 3d at 1055. Indeed,
California could not point to “even a single, concrete instance
in which pre-investigation collection of a Schedule B did
anything to advance the Attorney General’s investigative,
regulatory or enforcement efforts.” Id. The panel rejected
this well-supported finding based solely on the conclusory,
blanket assertions made by state witnesses that up-front
disclosure of donor names increases “investigative
efficiency.” AFPF II, 903 F.3d at 1010. Yet the Supreme
Court has made clear that a state’s “mere assertion” that there

AFP V. BECERRA

21

was a substantial relationship between the disclosure
requirement and the state’s goals is not enough to establish
such a relationship. See Bates, 361 U.S. at 525; Gibson,
372 U.S. at 554 55. And the record does not otherwise
support the panel’s conclusion.
Finally, the district court found ample evidence that
Foundation supporters would likely be subject to threats or
hostility should their affiliations be disclosed. See Ams. for
Prosperity Found., 182 F. Supp. 3d at 1055 56. But based on
its unsupported assumption that public disclosure would not
occur, the panel felt justified in disregarding this wellsupported conclusion. AFPF II, 903 F.3d at 1017.
Given the panel’s erroneous factual determinations that
there would be no public disclosure of Foundation donors and
that California’s disclosure requirement was substantially
related to its enforcement goals, and its mistaken legal
decision that no narrow tailoring was required, it is not
surprising that the panel easily arrived at the conclusion that
the donors were not entitled to any protection of their First
Amendment rights.
IV
But contrary to the panel, the full protection of NAACP v.
Alabama was warranted in this case, because the
Foundation’s donors may be exposed to harassment and
abuse if their identities are disclosed, and the special
considerations regarding government-required disclosures for
elections are not present. See, e.g., Primus, 436 U.S. at 432;
Brock, 860 F.2d at 350. Had the panel properly recognized
NAACP v. Alabama’s applicability, it would have considered
(1) whether California presented a compelling interest that is

22

AFP V. BECERRA

(2) substantially related to the disclosure requirement, and
(3) whether the requirement was narrowly tailored to the
articulated interest. See 357 U.S. at 462 63; Gibson,
372 U.S. at 546; Gremillion, 366 U.S. at 297.
Applying the correct test, it is clear that California failed
to show that its Schedule B disclosure requirement is
“substantially related” to any interest in policing charitable
fraud. A state’s “mere assertion” that there was a substantial
relationship between the disclosure requirement and the
state’s goals is not enough to establish such a relationship, see
Bates, 361 U.S. at 525; Gibson, 372 U.S. at 554 55, and the
district court’s well-supported factual findings establish that
the Schedule Bs are rarely used to detect fraud or to enhance
enforcement efforts.
Nor is California’s disclosure requirement narrowly
tailored; rather, the means “broadly stifle fundamental
personal liberties” and “the end can be more narrowly
achieved.” Gremillion, 366 U.S. at 296 (quoting Shelton,
364 U.S. at 488). The state requires blanket Schedule B
disclosure from every registered charity when few are ever
investigated, and less restrictive and more tailored means for
the Attorney General to obtain the desired information are
readily available. In particular, the Registry can obtain an
organization’s Schedule B through a subpoena or a request in
an audit letter once an investigation is underway without any
harm to the government’s interest in policing charitable fraud.
Moreover, the state failed to provide any example of an
investigation obscured by a charity’s evasive activity after
receipt of an audit letter or subpoena requesting a Schedule B,
although state witnesses made assertions to that effect. See
AFPF II, 903 F.3d at 1010 11. The panel’s erroneous
application of Buckley led it to ignore this requirement

AFP V. BECERRA

23

completely, and it demanded no explanation from California
for why such a sweeping disclosure requirement imposed
before the state has any reason to investigate a charity is
justified given equally effective, less restrictive means exist.
See id. at 1011 12.
Accordingly, under the proper application of the test to
the facts found by the district court, the Foundation was
entitled to First Amendment protection of its donor lists.
Because California failed to show a substantial relation
between its articulated interest and its disclosure requirement,
and because it failed to show that the requirement was
narrowly tailored, California’s Schedule B disclosure
requirement fails the test provided by NAACP v. Alabama,
and it should have been struck down as applied to the
Foundation.
The panel’s contrary conclusion eviscerates the First
Amendment protections long-established by the Supreme
Court. By applying Buckley where NAACP v. Alabama’s
higher standard should have been triggered, the panel lowered
the bar governments must surmount to force disclosure of
sensitive associational ties. Under the panel’s standard, a
state’s self-serving assertions about efficient law enforcement
are enough to justify disclosures notwithstanding the threats,
hostility, and economic reprisals against socially disfavored
groups that may ensue. And by rejecting the district court’s
factual findings that disclosed donor lists will become public
and expose individuals to real threats of harm, the panel
imposes a next-to-impossible evidentiary burden on plaintiffs
seeking protection of their associational rights. Indeed, if the
Foundation’s evidence is not enough to show that California
cannot adequately secure its information, no plaintiff will be
able to overcome a state’s empty assurances. “The possibility

24

AFP V. BECERRA

of prevailing in an as-applied challenge provides adequate
protection for First Amendment rights only if . . . the showing
necessary to obtain the exemption is not overly burdensome.”
Doe, 561 U.S. at 203 (Alito, J., concurring).
V
In short, the panel’s conclusion is contrary to the
reasoning and spirit of decades of Supreme Court
jurisprudence. Under the panel’s analysis, the government
can put the First Amendment associational rights of members
and contributors at risk for a list of names it does not need, so
long as it promises to do better in the future to avoid public
disclosure of the names. Given the inability of governments
to keep data secure, this standard puts anyone with
controversial views at risk. We should have reheard this case
en banc to reaffirm the vitality of NAACP v. Alabama’s
protective doctrine, and to clarify that Buckley’s watereddown standard has no place outside of the electoral context.
The First Amendment freedom to associate is vital to a
functioning civil society. For groups with “dissident beliefs,”
it is fragile. The Supreme Court has recognized this time and
time again, but the panel decision strips these groups of First
Amendment protection. I dissent from our decision not to
correct this error.

AFP V. BECERRA

25

FISHER, PAEZ and NGUYEN, Circuit Judges, responding
to the dissent from the denial of rehearing en banc:
The State of California, like the federal government,
requires tax-exempt § 501(c)(3) organizations to file annual
returns with regulators charged with protecting the public
against charitable fraud. Among other things, these
organizations are required to report the names and addresses
of their largest contributors on IRS Form 990, Schedule B.
The information is provided to regulators, who use it to
prevent charitable fraud, but it is not made public. Both
circuits to consider the question have concluded that First
Amendment challenges to these requirements are subject to
exacting, rather than strict, scrutiny, and both circuits have
held that these requirements satisfy exacting scrutiny. See
Ams. for Prosperity Found. v. Becerra (AFPF II), 903 F.3d
1000 (9th Cir. 2018); Citizens United v. Schneiderman,
882 F.3d 374 (2d Cir. 2018); Ams. for Prosperity Found. v.
Harris (AFPF I), 809 F.3d 536 (9th Cir. 2015); Ctr. for
Competitive Politics v. Harris, 784 F.3d 1307 (9th Cir.), cert.
denied, 136 S. Ct. 480 (2015). As these courts have
recognized, requiring the nonpublic disclosure of Schedule B
information comports with the freedom of association
protected by the First Amendment because it allows state and
federal regulators to protect the public from fraud without
exposing contributors to the threats, harassment or reprisals
that might follow public disclosure.
I
Organizations operated exclusively for religious,
charitable, scientific or educational purposes are eligible for
an exemption from federal and state taxes under § 501(c)(3)
of the Internal Revenue Code and § 23701 of the California

26

AFP V. BECERRA

Revenue & Tax Code. Organizations avail themselves of this
status to avoid taxes and collect tax-deductible contributions.
Because this favored tax treatment presents opportunities
for self-dealing, fraud and abuse, organizations availing
themselves of § 501(c)(3) status are subject to federal and
state oversight. Congress has required every organization
exempt from taxation under § 503(c)(3) to file an annual
information return (Form 990 series) with the Internal
Revenue Service, setting forth detailed information on its
income, expenditures, assets and liabilities, including, as
relevant here, “the total of the contributions and gifts received
by it during the year, and the names and addresses of all
substantial contributors.”
26 U.S.C. § 6033(b)(5).
Organizations such as plaintiffs Americans for Prosperity
Foundation and Thomas More Law Center are required to
report the name and address of any person who contributed
the greater of $5,000 or 2 percent of the organization’s total
contributions for the year.
See 26 C.F.R.
§ 1.6033-2(a)(2)(iii)(a). An organization with $10 million in
annual revenue, for example, must report contributors who
have given in excess of $200,000 for the year. Between 2010
and 2015, the Thomas More Law Center was required to
report no more than seven contributors; Americans for
Prosperity Foundation was required to report no more than
10 contributors
those contributing over $250,000.
Organizations report this information on IRS Form 990,
Schedule B.
This information is reported not only to the IRS but also
to state regulators. California’s Supervision of Trustees and
Charitable Trusts Act requires the Attorney General to
maintain a registry of charitable organizations and authorizes
the Attorney General to obtain “whatever information, copies

AFP V. BECERRA

27

of instruments, reports, and records are needed” for the
registry’s “establishment and maintenance.” Cal. Gov’t Code
§ 12584. To solicit tax-deductible contributions from
California residents, an organization must maintain
membership in the registry, see id. § 12585, and as one
condition of registry membership, charities must submit a
complete copy of the IRS Form 990 they already file with the
IRS, including Schedule B, see Cal. Code Regs. tit. 11, § 301.
This contributor information is not made public. See
26 U.S.C. § 6104(d)(1)(A)(i), (3)(A); Cal. Gov’t Code
§ 12590; Cal. Code Regs. tit. 11, § 310. The California
Attorney General keeps Schedule Bs in a separate file from
other submissions to the registry and excludes them from
public inspection on the registry website. See AFPF II,
903 F.3d at 1005. Only information that does not identify a
contributor is available for public inspection.
II
Some § 501(c)(3) organizations object to the Schedule B
reporting requirement. They argue that by submitting their
Schedule B information to regulators, they expose their major
contributors to threats, harassment and reprisals from those
regulators and from the public which in turn discourages
contributions. They argue, therefore, that this requirement
violates the freedom of association protected by the First
Amendment.
The two federal appellate courts to have addressed the
issue, ours and the Second Circuit, have rejected these claims.
See AFPF II, 903 F.3d 1000; Schneiderman, 882 F.3d 374;
AFPF I, 809 F.3d 536; Ctr. for Competitive Politics, 784 F.3d
1307. These courts have agreed that exacting rather than

28

AFP V. BECERRA

strict scrutiny applies, see AFPF II, 903 F.3d at 1008;
Schneiderman, 882 F.3d at 381 82; AFPF I, 809 F.3d at 541;
Ctr. for Competitive Politics, 784 F.3d at 1312, and that the
Schedule B requirement survives exacting scrutiny, because
the requirement serves an important governmental interest in
preventing charitable fraud without imposing a substantial
burden on the exercise of First Amendment rights.
The dissent from the denial of rehearing en banc
challenges these decisions, arguing that a form of strict
scrutiny applies and that California’s Schedule B requirement
is unconstitutional. In our view, the dissent’s arguments are
not well taken.
III
The bulk of the dissent is devoted to the argument that we
erred by applying exacting scrutiny. According to the
dissent, First Amendment challenges to disclosure
requirements are subject to two different tests:
1. In the electoral context, “exacting scrutiny” applies.
This “standard requires a substantial relation between
the disclosure requirement and a sufficiently
important governmental interest. To withstand this
scrutiny, the strength of the governmental interest
must reflect the seriousness of the actual burden on
First Amendment rights.” Doe v. Reed, 561 U.S. 186,
196 (2010) (citations and internal quotation marks
omitted).
2. Outside the electoral context, “heightened scrutiny”
applies. This standard requires (1) a “compelling
interest,” (2) “a substantial relationship between the

AFP V. BECERRA

29

information sought and the compelling state interest”
and (3) narrow tailoring. Dissent at 5. The dissent
refers to this strict-scrutiny-like test as “heightened
scrutiny” or the “NAACP v. Alabama test.”
This case does not arise in the electoral context. Hence,
according to the dissent, we should have applied the dissent’s
proposed “heightened scrutiny” test rather than exacting
scrutiny. Had we done so, the dissent says, we would have
invalidated California’s Schedule B requirement.
We respectfully disagree with the dissent’s contention
that First Amendment challenges to disclosure requirements
are subject to two different tests. In our view, there is only a
single test exacting scrutiny that applies both within and
without the electoral context. This test originated in NAACP
v. Alabama, 357 U.S. 449 (1958), and the other Civil Rights
Era cases Bates v. City of Little Rock, 361 U.S. 516 (1960),
Shelton v. Tucker, 364 U.S. 479 (1960), Louisiana ex rel.
Gremillion v. NAACP, 366 U.S. 293 (1961), Gibson v. Fla.
Legislative Investigation Comm., 372 U.S. 539 (1963) and
has been applied more recently in Buckley v. Valeo, 424 U.S.
1 (1976), Doe and other cases arising in the electoral context.
As Doe explains, the exacting scrutiny test:
requires a substantial relation between the
disclosure requirement and a sufficiently
important governmental interest.
To
withstand this scrutiny, the strength of the
governmental interest must reflect the
seriousness of the actual burden on First
Amendment rights.

30

AFP V. BECERRA

561 U.S. at 196 (citations and internal quotation marks
omitted).
Whereas strict scrutiny requires a compelling interest and
narrow tailoring in every case, the interest and tailoring
required under exacting scrutiny varies from case to case,
depending on the actual burden on First Amendment rights at
stake: the governmental interest must be “sufficiently
important” to justify the “actual burden on First Amendment
rights” in the case at hand. Id. (emphasis added). Thus,
where the burden that a disclosure requirement places on First
Amendment rights is great, the interest and the fit must be as
well. See, e.g., Buckley, 424 U.S. at 25 (“Even a significant
interference with protected rights of political association may
be sustained if the State demonstrates a sufficiently important
interest and employs means closely drawn to avoid
unnecessary abridgment of associational freedoms.”
(emphasis added) (internal quotation marks omitted));
Gibson, 372 U.S. at 546 (“Where there is a significant
encroachment upon personal liberty, the State may prevail
only upon showing a subordinating interest which is
compelling.” (emphasis added) (quoting Bates, 361 U.S. at
524)); Gremillion, 366 U.S. at 296 (“[E]ven though the
governmental purpose be legitimate and substantial, that
purpose cannot be pursued by means that broadly stifle
fundamental personal liberties when the end can be more
narrowly achieved.” (emphasis added) (quoting Shelton,
364 U.S. at 488)); Shelton, 364 U.S. at 488 (same); Bates,
361 U.S. at 524 (“Where there is a significant encroachment
upon personal liberty, the State may prevail only upon
showing a subordinating interest which is compelling.”
(emphasis added) (citing NAACP v. Alabama, 357 U.S. 449));
see also R. George Wright, A Hard Look at Exacting
Scrutiny, 85 UMKC L. Rev. 207, 210 (2016). But where, as

AFP V. BECERRA

31

here, the actual burden is slight, a weaker interest and a looser
fit will suffice.
The dissent’s contention that there are two different tests
is based on the premise that NAACP v. Alabama applied
something other than exacting scrutiny. We are not
persuaded. First, the Supreme Court has already told us that
NAACP v. Alabama applied exacting scrutiny: “Since
NAACP v. Alabama we have required that the subordinating
interests of the State must survive exacting scrutiny.”
Buckley, 424 U.S. at 64. Second, there is simply no way to
read NAACP v. Alabama as applying anything other than the
exacting scrutiny test described in Doe. The only question
the Court decided in NAACP v. Alabama was whether the
state had “demonstrated an interest in obtaining the
disclosures it seeks from petitioner which is sufficient to
justify the deterrent effect which we have concluded these
disclosures may well have on the free exercise by petitioner’s
members of their constitutionally protected right of
association.” NAACP v. Alabama, 357 U.S. at 463 (emphasis
added). The disclosure requirement failed solely because
“Alabama has fallen short of showing a controlling
justification for the deterrent effect on the free enjoyment of
the right to associate which disclosure of membership lists is
likely to have.” Id. at 466. There is no light between the test
applied in NAACP v. Alabama and the one described in Doe.
In sum, we properly applied exacting scrutiny.
IV
The dissent also challenges our conclusion that
California’s Schedule B requirement survives exacting
scrutiny. As noted, a disclosure requirement withstands

32

AFP V. BECERRA

scrutiny under this test if the strength of the governmental
interest reflects the seriousness of the actual burden on First
Amendment rights. See Doe, 561 U.S. at 196. Here, the
state’s strong interest in collecting Schedule B information
justifies the modest burden that nonpublic disclosure places
on the exercise of First Amendment rights.
A. Strength of the Governmental Interest
With respect to the state’s interest in collecting
Schedule B information, the evidence was undisputed that the
state uses Schedule B information to investigate charitable
fraud. See AFPF II, 903 F.3d at 1011. “Current and former
members of the Charitable Trusts Section, for example,
testified that they found the Schedule B particularly useful in
several investigations over the past few years, and provided
examples. They were able to use Schedule B information to
trace money used for improper purposes in connection with
a charity serving animals after Hurricane Katrina; to identify
a charity’s founder as its principal contributor, indicating he
was using the research charity as a pass-through; to identify
self-dealing in that same charity; to track a for-profit
corporation’s use of a non-profit organization as an improper
vessel for gain; and to investigate a cancer charity’s gift-inkind fraud.” Id. Circuits have consistently recognized the
strength of this interest. See, e.g., Schneiderman, 882 F.3d
at 384; Ctr. for Competitive Politics, 784 F.3d at 1311, 1317.
The evidence also was undisputed that up-front collection
of Schedule B information provides the only effective means
of obtaining the information. State regulators testified that
attempting to obtain a Schedule B from a regulated entity
after an investigation begins is ineffective “[b]ecause it’s
time-consuming, and you are tipping the charity off that they

AFP V. BECERRA

33

are about to be audited.” AFPF II, 903 F.3d at 1010. Using
a subpoena or audit letter “would tip them off to our
investigation, which would allow them potentially to dissipate
more assets or hide assets or destroy documents, which
certainly happened several times; or it just allows more
damage to be done to [the] charity.” Id.; accord Ctr. for
Competitive Politics, 784 F.3d at 1317.
Although the district court questioned the strength of the
governmental interest, it did so by applying an erroneous
legal standard, requiring the state to establish that up-front
collection of Schedule B information was the least restrictive
means of obtaining the information, see Ams. for Prosperity
Found. v. Harris, 182 F. Supp. 3d 1049, 1053 55 (C.D. Cal.
2016), and that it would be impossible for the state to regulate
charitable organizations without collecting Schedule B
information, see Thomas More Law Ctr. v. Harris, No. CV
15-3048-R, 2016 WL 6781090, at *2 (C.D. Cal. Nov. 16,
2016). By applying the wrong legal standard, the district
court abused its discretion, see United States v. Hinkson,
585 F.3d 1247, 1251 (9th Cir. 2009) (en banc), and
disregarded a previous ruling by this court in this very case,
see AFPF I, 809 F.3d at 541 (rejecting a least restrictive
means test).
B. Actual Burden on First Amendment Rights
To determine the actual burden on First Amendment
rights, we looked at two questions: (1) the likelihood that the
plaintiffs’ Schedule B contributors would face threats,
harassment or reprisals if their Schedule B information were
made public and (2) the likelihood that the information would
become public. See AFPF II, 903 F.3d at 1015.

34

AFP V. BECERRA

We ultimately declined to reach any conclusion with
respect to the first question. See id. at 1017. The evidence on
that question was mixed. Neither plaintiff, for example,
identified a single contributor who would withhold financial
support based on the plaintiffs’ compliance with California’s
Schedule B disclosure requirement. See id. at 1014. The
Thomas More Law Center, moreover, has consistently overreported contributor information on its Schedule B filings,
undermining its contention that reporting deters contributions.
See id. Furthermore, many of the plaintiffs’ Schedule B
contributors are already publicly known. Private foundations,
for example, are required by law to publicly disclose their
contributions to the plaintiffs. See id. at 1015. Other
Schedule B contributors such as Charles and David Koch
are already publicly identified with the plaintiffs. In addition,
although the evidence showed that individuals who are
associated with the plaintiffs, such as the Koch brothers, have
faced threats or harassment based on their controversial
activities, the plaintiffs “presented little evidence bearing on
whether harassment has occurred, or is likely to occur, simply
because an individual or entity provided a large financial
contribution to the Foundation or the Law Center.” Id.
at 1016 & n.6. In 2013, the National Journal published copies
of the Foundation’s Schedule Bs, but the Foundation
presented no evidence that contributors suffered retaliation as
a result. See id. at 1017.
Ultimately, because California, like the federal
government and other states, requires only the nonpublic
disclosure of Schedule B information, we did not need to
decide whether, in the event of public disclosure of the
Schedule B information, the plaintiffs’ Schedule B
contributors were likely to encounter threats, harassment or
reprisals. See id. at 1017. We acknowledged the risk of

AFP V. BECERRA

35

inadvertent public disclosure based on past confidentiality
lapses by the state. See id. at 1018. We explained, however,
that “[t]he state’s past confidentiality lapses [were] of two
varieties: first, human error when Registry staff miscoded
Schedule B forms during uploading; and second, a software
vulnerability that failed to block access to a plaintiff’s expert
as he probed the Registry’s servers for flaws during this
litigation.” Id. at 1018. We explained that the software
problem stemmed from a third-party vendor, had been
“quickly remedied” and was not “likely to recur.” Id. With
respect to the problem of human error, we explained that
the Registry Unit has implemented stronger
protocols to prevent human error. It has
implemented “procedural quality checks . . .
to sample work as it [is] being performed” and
to ensure it is “in accordance with procedures
on handling documents and [indexing them]
prior to uploading.”
It has further
implemented a system of text-searching batch
uploads before they are scanned to the
Registry site to ensure none contains Schedule
B keywords. At the time of trial in 2016, the
Registry Unit had halted batch uploads
altogether in favor of loading each document
individually, as it was refining the text-search
system. After forms are loaded to the
Registry, the Charitable Trusts Section runs
an automated weekly script to identify and
remove any documents that it had
inadvertently misclassified as public. There is
also no dispute that the Registry Unit
immediately removes any information that an

36

AFP V. BECERRA
organization identifies as having been
misclassified for public access.

Id. There was no evidence that these “cybersecurity protocols
are deficient or substandard as compared to either the
industry or the IRS, which maintains the same confidential
information.” Id. at 1019.
We also emphasized that we were addressing an asapplied challenge. See id. The key question, therefore, was
not whether there was a “risk of inadvertent disclosure of any
Schedule B information in the future,” but rather whether
there was a significant “risk of inadvertent disclosure of the
plaintiffs’ Schedule B information in particular.” Id. There
can be no question that this risk which the district court
failed to consider is exceedingly small, so the plaintiffs did
not show “a reasonable probability that the compelled
disclosure of [their major] contributors’ names will subject
them to threats, harassment, or reprisals from either
Government officials or private parties.” Buckley, 424 U.S.
at 74. The state’s interest in obtaining the plaintiffs’
Schedule B information therefore was sufficient under Doe to
justify the modest burden on First Amendment rights. See
AFPF II, 903 F.3d at 1019.
V
Our colleagues sensibly declined to rehear this case en
banc. Our decision to apply exacting scrutiny is consistent
with Supreme Court precedent, see Doe, 561 U.S. at 196;
Buckley, 424 U.S. at 64, NAACP v. Alabama, 357 U.S. at 463,
Ninth Circuit precedent, see Ctr. for Competitive Politics,
784 F.3d at 1312 13, and out-of-circuit precedent, see
Schneiderman, 882 F.3d at 381 82. Likewise, our conclusion

AFP V. BECERRA

37

that the Schedule B reporting requirement survives exacting
scrutiny is consistent with both Ninth Circuit and out-ofcircuit precedent. See Schneiderman, 882 F.3d at 383 85;
Ctr. for Competitive Politics, 784 F.3d at 1312 17. Although
only two circuits have addressed the issue, they have
uniformly held that nonpublic Schedule B reporting
requirements satisfy the First Amendment because they allow
state and federal regulators to protect the public from
charitable fraud without subjecting major contributors to the
threats, harassment or reprisals that could flow from public
disclosure.

